<html>
<title> - VOTING RIGHTS AND ELECTIONS ADMINISTRATION IN ARIZONA</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




                                                          
        VOTING RIGHTS AND ELECTIONS ADMINISTRATION IN ARIZONA

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                            OCTOBER 1, 2019

                               ----------                              

      Printed for the use of the Committee on House Administration
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
         
         
         

         VOTING RIGHTS AND ELECTIONS ADMINISTRATION IN ARIZONA
         
         
         
         
         
         
         


 
         VOTING RIGHTS AND ELECTIONS ADMINISTRATION IN ARIZONA

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 1, 2019

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
      


                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration
         
         
         
         
         
         
 
                U.S. GOVERNMENT PUBLISHING OFFICE 
 38-129                  WASHINGTON : 2019        
         
         
         
         
         
                            C O N T E N T S

                              ----------                              

                            OCTOBER 1, 2019

                                                                   Page
Voting Rights and Election Administration in Arizona.............     1

                           OPENING STATEMENTS

Chairwoman Marcia L. Fudge.......................................     1
    Prepared statement of Chairwoman Fudge.......................     4

                               WITNESSES

Hon. Jonathan Nez, President, The Navajo Nation..................     6
    Prepared statement of Hon. Nez...............................     9
Hon. Stephen Roe Lewis, Governor, Gila River Indian Community....    17
    Prepared statement of Hon. Lewis.............................    20
Patricia Ferguson-Bohnee, Professor of Law, Indian Legal Clinic, 
  Arizona State University.......................................    38
    Prepared statement of Ms. Ferguson-Bohnee....................    41
Hon. Lorena C. Van Assche, Chair, Arizona State Advisory 
  Committee, U.S. Commission on Civil Rights.....................    50
    Prepared statement of Hon. Van Assche........................    52
Montserrat Arredondo, Table Director, One Arizona................    59
    Prepared statement of Ms. Arredondo..........................    61
Alex Gulotta, Arizona State Director, All Voting Is Local........    63
    Prepared statement of Mr. Gulotta............................    65
Darrell L. Hill, Policy Director, ACLU of Arizona................    70
    Prepared statement of Mr. Hill...............................    72
Hon. Michelle Ugenti-Rita, State Senator, State Senate of Arizona    81
    Prepared statement of Hon. Ugenti-Rita.......................    83

                       SUBMISSIONS FOR THE RECORD

League of Women Voters of Arizona, statement.....................   103
Arizona Advisory Committee, U.S. Commission on Civil Rights, 
  Voting Rights in Arizona Report July 2018, statement...........   108
Patricia Ferguson-Bohnee, Professor of Law, Indian Legal Clinic, 
  Arizona State University, History of Indian Voting Rights in 
  Arizona: Overcoming Decades of Voter Suppression, statement....   126
Arizona Advocacy Foundation, Arizona Shelby Response Project: 
  Modernizing Elections and Maximizing Voter Participation, 
  statement......................................................   172
Patricia Ferguson-Bohnee, Professor of Law, Indian Legal Clinic, 
  Arizona State University, Native Vote--Election Protection 
  Project 2016 Election Report, statement........................   200
Adrian Fontes, Maricopa County Recorder, statement...............   197


         VOTING RIGHTS AND ELECTIONS ADMINISTRATION IN ARIZONA

                              ----------                              


                        TUESDAY, OCTOBER 1, 2019

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:03 a.m., at 
Phoenix College, Bulpitt Auditorium, 1202 W. Thomas Road, 
Phoenix, Arizona, Hon. Marcia L. Fudge (Chair of the 
Subcommittee) presiding.
    Present: Representatives Fudge, Butterfield, and Aguilar.
    Also Present: Representatives Grijalva, Stanton, Gallego, 
and Lesko.
    Staff Present: Jamie Fleet, Staff Director; Eddie Flaherty, 
Chief Clerk; Sean Jones, Legislative Clerk; Daniel Taylor, 
General Counsel; Peter Whippy, Communications Director; Veleter 
Mazyck, Chief of Staff to Ms. Fudge; Sarah Nasta, Counsel - 
Elections; Courtney Parella, Minority Communications Director; 
Jesse Roberts, Minority Counsel; and Cole Felder, Minority 
General Counsel.
    Chairwoman Fudge. The Subcommittee on Elections of the 
Committee on House Administration will come to order.
    I thank the Members of the Subcommittee, Representatives 
Butterfield and Aguilar, colleagues from the House, as well as 
our witnesses and those in the audience for being here today.
    I ask unanimous consent that all Members have five 
legislative days to revise and extend their remarks and that 
any written statements be made part of the record.
    Hearing no objection, so ordered.
    I ask unanimous consent that Members Grijalva, Stanton, and 
Lesko be invited to sit on the dais for the Subcommittee 
hearing today.
    Hearing no objection, so ordered.
    Good morning. My name is Marcia Fudge, and I am the Chair 
of the Subcommittee on Elections. I want to begin by thanking 
Phoenix College of Maricopa County Community College for their 
hospitality and assistance in hosting this field hearing.
    I again thank my colleagues, our witnesses, Tribal leaders, 
and the people of Arizona for joining us here today. I also 
thank my distinguished colleague, Congressman Gallego, for so 
warmly welcoming us to his district, and he will be joining us 
shortly, as well as my colleagues, Congressmen Stanton, 
Grijalva, and Lesko for welcoming us to Arizona as we continue 
this important work.
    We are here today to examine the state of voting rights and 
election administration in Arizona. Since the beginning of the 
116th Congress, this Subcommittee has been holding field 
hearings across the country convening forums to hear from 
voting and election advocates, experts, community leaders, 
litigators, and voters about the state of voting rights and the 
election administration in their communities.
    The right to vote is sacred, and as Members of Congress, we 
take our responsibility to protect access to the ballot very 
seriously. We have been listening closely and collecting 
testimony regarding the wide range of methods of voter 
suppression and discrimination being deployed across the 
nation. Today, we are here to learn firsthand from Tribal 
leaders, voting rights advocates, and litigators about their 
experiences exercising the right to vote in the State of 
Arizona.
    Protecting the right to vote is fundamental to the health 
of our democracy. The Voting Rights Act of 1965 was intended to 
protect the right to vote in every single corner of the United 
States. Each of us should be concerned about the erosion of 
such a fundamental law.
    Prior to 2013, Arizona was one of nine States fully covered 
by the preclearance requirements of Sections 4(b) and 5 of the 
Voting Rights Act. Voting changes in Arizona had to be 
evaluated for their potential discriminatory impact and were 
subject to review by the Department of Justice. But since the 
Supreme Court's decision in Shelby County v. Holder, voters in 
Arizona have seen numerous changes to voting without evaluation 
of their potential to discriminate.
    Since 2012, Arizona has closed 320 polling stations in 13 
of its 15 counties. Such closures pose access to voting 
challenges and may have a disparate impact on communities of 
color. The highest count of poll closures took place in 
Maricopa County, which is 31 percent Latino, with 117 closures. 
During the March 2016 Presidential primary, there were reports 
that voters in Maricopa County waited in lines as long as 5 
hours to cast their ballot.
    Arizona has a history of failing to protect the right to 
vote for Native Americans. Although Native Americans gained the 
right to vote in 1924, it was not until 1948 that Native 
Americans gained the franchise in Arizona. And still, for 
years, the Native American community continued to face 
discriminatory poll taxes, literacy tests, and other forms of 
disenfranchisement in Arizona.
    We must ensure all Native Americans and other language 
minorities have access to the translated materials and language 
assistance they need to cast their vote. In addition, the move 
towards vote by mail and the attempt to outlaw ballot 
collection raises concerns that Native Americans and others 
with limited ability to access a polling location or mail 
service will be disenfranchised.
    Further, although the Supreme Court held in 2012 that 
requiring proof of citizenship to register to vote is 
inconsistent with the National Voter Registration Act, Arizona 
still moved to require proof of citizenship when individuals 
registered to vote in State and local elections, although the 
Federal voter registration form does not. Native American 
voters and other minority communities are less likely to have 
the required ID.
    These are just a few examples of hurdles faced by Arizona's 
voters. It is critical to note that Chief Justice Roberts 
himself said, ``voting discrimination still exists, no one 
doubts that.'' The Chief Justice argued Congress needs to 
present a more up-to-date record of the prevalence of voting 
discrimination in order to reinstate the critical protections 
of Section 4(b) of the Voting Rights Act.
    It is critical we examine the state of voting rights in 
America and build a true contemporaneous record of ongoing 
discrimination and barriers to voters, and that is why we are 
here today. It is clear there is much work to be done.
    [The statement of Chairwoman Fudge follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Fudge. I will now introduce our witnesses for 
our first panel. We have Jonathan Nez, who is the President of 
Navajo Nation, and Stephen Roe Lewis, who is the Governor of 
Gila River Indian Community.
    I thank you both gentlemen for being here. You will see a 
lighting system in front of you. When you begin, the light will 
be green. You will have five minutes. When you see the light 
turn yellow, that means you have one minute remaining. When you 
see the red light, that means please try to wrap up as quickly 
as possible. Thank you very much.
    Mr. Nez, the floor is yours. You have five minutes.

STATEMENTS OF THE HONORABLE JONATHAN NEZ, PRESIDENT, THE NAVAJO 
  NATION; AND THE HONORABLE STEPHEN ROE LEWIS, GOVERNOR, GILA 
                     RIVER INDIAN COMMUNITY

            STATEMENT OF THE HONORABLE JONATHAN NEZ

    Mr. Nez. Good morning, Madam Chairwoman, and Members of the 
Subcommittee. And also, greetings to my friend here, Governor 
Lewis, from the Gila River Indian Community. With me in the 
audiences are Vice President of the Navajo Nation, Myron Lizer. 
And thank you for the opportunity to talk with you today on 
this very important topic.
    The Navajo Nation covers a large area of northern Arizona, 
and many of our people still speak our Navajo, or Din, 
language. They live in rural areas of our homeland and travel 
many miles for basic services. These three areas are my focus 
today, while we can acknowledge there are many more issues we 
can talk about today or at future hearings.
    Number one, language. Like many older Navajos, I speak both 
Navajo and English. I grew up as Navajo being my first 
language. Many of our older citizens speak Navajo as their 
primary language and are more comfortable talking to others in 
the Navajo language.
    As I understand it, the Navajo language is covered under 
Section 203 of the Voting Rights Act. I also understand this 
requires that all election material provided in the English 
language must also be provided in Navajo.
    The Navajo Nation continues to have issues with some of the 
counties and the State of Arizona providing sufficient 
translation services to Navajo voters in written material, on 
radio, and to in-person voters. We are working this out with 
the counties in our region, but there is still a lot of ground 
to cover.
    The point I must make here, so we all understand each 
other, the Navajo Nation has always worked with the counties in 
our area, and we will continue to do so for the benefit of all 
our citizens, including these issues of translation and 
understanding of election issues. I do not want anyone to 
misunderstand and get the idea that the Navajo Nation and 
counties are continually at odds with each other. We all work 
for the people of northern Arizona.
    Number two, rural living. The Navajo Nation covers 27,000 
square miles in three States, just a bit smaller than Ohio, 
Madam Chairwoman, your home State. Our capital is in Window 
Rock, Arizona, and we have 110 chapters or local government 
centers.
    When it comes time to vote on the Navajo Nation, in Navajo 
State and Federal elections, it is difficult for some of our 
membership due to the rural nature of our land. One example of 
rural living on the Navajo Nation is public transportation, 
which is available in most of the United States. There is no 
public transportation that allows for the pickup of individual 
citizens at their place of residence. This severely limits the 
transportation options for the elderly and disabled citizens. 
People are relying on relatives or friends for rides, 
especially in the more rural areas. In some parts of the 
nation, only 1 in 10 families own a vehicle, which further 
limits transportation options.
    In addition, if there are Tribal elections on the same day 
as the State and Federal elections, an individual may be 
required to travel two separate locations in two separate 
communities to cast ballots on election day. This can lead to 
an individual spending many hours in 1 day driving and waiting 
in line to vote. I will cover this issue in a minute.
    A related issue to rural living is mailing address. An 
individual's post office box location may be in a different 
State or county than the individual's residency. A person may 
reside in Arizona, but their PO box and chapter house is in New 
Mexico, for example, Red Lake Chapter, Arizona, and Crystal 
Chapter, New Mexico, or reside in Utah and their PO box in 
Arizona, an issue for residents of Navajo Mountain Chapter, 
Utah. Some individuals reside in Navajo County, but their PO 
box and local chapter house is in Coconino County. The example 
is Bird Springs Chapter.
    For those here, these locations are not familiar but are an 
issue for these living there, because a discrepancy in the 
State or county location between an individual's post office 
box and their physical residence leads to difficulties for 
individual Navajos in registering to vote. If the county cannot 
confirm the location of an individual's residence, it will 
reject their registration application.
    Number three, traveling issues. In 2018, Apache County had 
only two early voting locations on the Navajo Nation in the 
southern part of the reservation. This resulted in community 
members from Teec Nos Pos Chapter located near the Utah border 
having to drive a 95-mile, one-way trip to vote early. This is 
like driving a two-lane road from Columbus to Cincinnati, less 
traffic but just as long. This is in contrast to off-
reservation populations who had early voting locations in 
closer proximity to population centers and open for more days 
and longer hours. By limiting in-person early voting on the 
reservation, it hinders Navajo citizens from exercising the 
right to vote in their preferred manner.
    In conclusion, an issue related to traveling is that the 
county precincts do not align with Navajo political 
subdivisions, the chapters, or local government centers, as I 
mentioned before. An individual's chapter house may be the 
polling location of a precinct, but because of where the 
individual lives in the chapter area, they are actually not in 
the same precinct that the chapter house is.
    For instance, the Cameron Chapter directly north of 
Phoenix, about 200 miles, is not located in one precinct but is 
divided between several precincts. The residents of Cameron 
Chapter may be in the Bodaway-Gap precinct of Coconino County. 
If the individual works in Tuba City, the individual would have 
to take time off work to vote at his or her chapter house for a 
Navajo election and drive to another precinct polling location 
in Bodaway-Gap to vote in State elections, for a trip total of 
60 miles.
    So in summary, there are many other issues we can talk 
about, but these three, language, rural area, traveling 
conditions are what I focus on today. And I appreciate the time 
extended to us for our testimony, and I stand ready for 
questions. Thank you.
    [The statement of Mr. Nez follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Fudge. Thank you very much, Mr. President. One 
thing I did neglect to tell you, this is being live-streamed, 
so at any point, you may be on a camera. So just to forewarn 
you, so that you are not like doing something silly when the 
camera comes on you.
    Mr. Governor, you are recognized for 5 minutes.

          STATEMENT OF THE HONORABLE STEPHEN ROE LEWIS

    Mr. Lewis. Thank you, Madam Chairwoman. [Speaking Akimel 
O'otham] I am Governor Stephen Roe Lewis of the Gila River 
Indian Community. It is an honor to welcome you to our O'otham, 
our traditional lands of the O'otham peoples. And Chairwoman 
Fudge, Ranking Member Davis, and Members of the Subcommittee, 
thank you sincerely for the opportunity to testify on this 
important topic regarding voting rights and elections 
administration in Arizona.
    The Indian Citizenship Act made Tribal members full United 
States citizens in 1924. Unfortunately, as we know, Tribal 
members across Indian Country are still fighting to secure and 
exercise their right to vote.
    Across the country, Tribal members living on Indian 
reservations face unique voting challenges that individuals 
living elsewhere take for granted, and this is no different in 
Arizona. The Gila River Indian Community strives to address and 
tear down the barriers faced by the community's Tribal members 
and is actively involved in initiatives to increase voter 
turnout across our great reservation.
    The community is comprised of the Akimel O'odham and the 
Pee-Posh Tribes, and has over 23,000 enrolled members, with 
approximately 12,000 of those members residing on the 
reservation. Our reservation is roughly 372,000 acres and 
located in south central Arizona in both Maricopa and Pinal 
Counties. The reservation is divided into seven political 
districts with five of those districts located in Pinal County 
and two located in Maricopa County.
    A little bit about our history. In 1928, the community's 
Tribal members, Peter Porter and Rudolph Johnson, were denied 
the right to register to vote in Pinal County for two reasons: 
First, because the county did not believe that they resided 
within the State of Arizona since they lived on our 
reservation; second, because the county believed that as 
American Indians, Porter and Johnson remained wards of the 
Federal Government and that both they and the rest of American 
Indians in Arizona were not entitled to vote in Arizona 
elections for State and Federal officers.
    Porter and Johnson litigated Pinal County's decision in the 
Arizona Supreme Court and lost, unfortunately. The Court agreed 
with the county that Porter and Johnson were, quote, ``under 
guardianship,'' unquote, of the Federal Government and, 
therefore, not entitled to vote.
    Tribal members living on reservations in Arizona were 
unable to vote until 1948, when the Arizona Supreme Court 
overturned its previous decision and recognized Tribal members' 
rights to vote in Arizona elections.
    In 1948, only two States continued to disenfranchise 
voters: New Mexico and Arizona. Tribal members' rights to vote 
in Arizona may now be fully recognized under the law, but 
Tribal members continue to face barriers to voting. Within 
Indian Country, Tribal members are often turned away at the 
polls because of voter address issues, which combined with 
ineffective election administrators and unreliable precinct 
locations, foster voter and Tribal member distrust and 
disenfranchise in the voting process.
    There are important address issues as well. Under current 
Arizona law, all persons voting in person on election day must 
provide identification that includes an address in order to 
receive a regular ballot. If the identification does not 
include the individual's photo, then the individual is burdened 
with providing additional documentation. In contrast, 
individuals who cast provisional ballots or vote early by mail 
or in person do not have to provide identification in order to 
receive their ballots.
    Our community members generally prefer to vote in person on 
election day because voting by mail is difficult due to 
unreliable mail service on the reservation and issues related 
to their nontraditional addresses. The community's Tribal 
identification cards do not include addresses.
    Also, individuals living on the Pinal County portion of the 
reservation do not have standard county street addresses, 
through no fault of their own. Many Tribal members do not even 
receive mail at their homes and pay for a United States Post 
Office box, which are only open during the week and for limited 
hours on Saturdays.
    In 2012, voter identification laws were strictly enforced 
on the Pinal County portion of the reservation, and many 
community voters were turned away from the polls when their 
addresses did not match the voter rolls. In very few instances, 
voters were offered and allowed to cast provisional ballots 
despite not having an address on their Tribal identification 
document. The majority of these voters were denied ballots 
altogether. In Maricopa County, voters were turned away when 
the county ended up changing their voting precincts without 
effectively communicating these changes to voters.
    Despite improvements, many Tribal members were again turned 
away at the polls in the 2016 election. Voter identification 
laws in Arizona and nontraditional Tribal addresses problems 
remain still a huge barrier for our community's voters, and 
unless remedied, the community expects that these problems will 
continue in the next election.
    We have been trying to remedy this in certain ways. The 
community is working at a grassroots level to encourage and 
inform community members to participate in elections in 
partnership with Get Out the Vote. Our communications and 
public affairs office recently worked with GOTV and the 
National Congress of American Indians to produce video content 
to increase voter turnout among our community. These videos 
discuss the historic struggle to vote within Arizona and the 
need to increase the number of American Indian voters.
    This past August, we hosted the Arizona Native Right to 
Vote Day celebration. Voting registration has increased since 
the 2016 election, but the community remains committed to 
further increasing registration numbers by the community's 
estimates. Only 58 percent of the voting age population is 
currently registered to vote, and more must be done.
    Voting should not be hard to do. The community strives to 
carry on the legacy of Peter Porter, Rudolph Johnson, and so 
many other Tribal advocates who fought to secure the rights 
that American Indians in Arizona have today, including our 
veterans. Ira Hayes, one of the flag raisers in Iwo Jima, comes 
proudly. He is a native son of the Gila River Indian Community. 
And so we know there are Native veterans who have served in the 
highest levels across the United States. They fought for, and 
they sacrificed for, our right to vote as well.
    So with that, thank you for this opportunity to tell the 
Gila River Indian Community story on voting history and what we 
need to change in the future.
    Thank you, Madam Chairwoman.
    [The statement of Mr. Lewis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Fudge. Thank you.
    Thank you both. We will now take questions from our panel.
    Mr. Butterfield, you are recognized for five minutes.
    Mr. Butterfield. Thank you very much, Chairwoman Fudge. And 
thank you to the two witnesses for your testimony today.
    When Ms. Fudge became the Chairwoman of this Subcommittee, 
she promised that we would take these hearings all across the 
country, and she has fulfilled that commitment. And we are here 
today in Arizona collecting evidence that will be used in a 
very constructive way when we return to Washington. So, thank 
you, Chairwoman Fudge.
    Thank you to my colleagues who have joined this panel today 
and I wish to thank the witnesses as well.
    This is a Congressional hearing. As I say in all of these 
hearings across the country, this is not a political maneuver. 
This is a Congressional hearing. We are collecting evidence as 
we travel the country that will be entered into the 
Congressional record, and we will use it as Members of Congress 
to try to reinstate Section 4, and to enhance and to improve 
voter participation across the country and so this is a very 
important proceeding here today.
    I am probably one of the few people around--no, there are a 
few more--who actually remember the enactment of the 1965 
Voting Rights Act. It was days after I finished high school, 
August 6, 1965. A very powerful law.
    The background of it is that after the passage of the Civil 
Rights Act of 1964, that Act did not include any provision 
regarding voting. That was too toxic of an issue to inject into 
the civil rights bill, and so after that, Martin Luther King, 
Jr., and others, began a new movement in Selma, Alabama, in 
January 1965, determined to get a voting rights bill enacted 
into law.
    So when the bill was finally enacted in August of 1965, it 
included some very powerful provisions. The most notable was 
Section 2, which gives every aggrieved plaintiff or minority 
citizen the right to bring a lawsuit if they feel that some 
election system is diluting or affecting their vote. But the 
other provision which we are very concerned about is Section 5.
    Section 5 covers--or covered, many States throughout the 
country. In some States, it only included portions of States. I 
believe here in Arizona, it was not involved in the original 
1965 Act, but 7 years later, in 1972, the State of Arizona, in 
its entirety, was included in the Act for purposes of 
preclearance.
    The reason for that was not because someone wanted to 
punish Arizona, but that meant, before 1972, there was a 
history predating 1972 of severe voter discrimination, and so 
Arizona was included. So for years and years, Arizona was 
required to submit voting changes to the Department of Justice 
for preclearance.
    But all of that came to a screeching stop on June 25, 2013, 
when the Shelby decision was rendered by the Supreme Court. But 
what many people do not fully understand is that the Shelby 
decision did not invalidate or strike down Section 5; it simply 
called on Congress, called on us in Congress to enact a formula 
that is a modern-day formula that will enable Section 5 to be 
more objectively applied.
    So we are collecting evidence, and we are going to present 
that evidence in the public record, and hopefully, we can 
persuade the Supreme Court to accept a revision of Section 4.
    And so thank you for your testimony. It is very valuable.
    I was really struck when I read the briefing material today 
that, since 2012, in the State of Arizona, 13 of 15 counties 
have closed polling places. 320 polling places have closed. If 
Section 5 of the Voting Rights Act were still in full force and 
effect, that would not have happened. Each one of those 
closures would have had to have been precleared by the 
Department of Justice. The DOJ would have looked at it, and the 
burden of proof would have been on the State to prove that 
those closures would not have a discriminatory effect. Not 
purpose, particularly, but a discriminatory effect.
    And so I just want to put that on your mind this morning, 
and just thank you for helping us with this fight. We are going 
to keep fighting until we can get Section 5 restored. So thank 
you very much for your testimonies today.
    Chairwoman Fudge. Thank you.
    Mr. Aguilar, you are recognized for 5 minutes.
    Mr. Aguilar. Thank you, Madam Chairwoman. And just like my 
colleague, I want to thank the Chairwoman for bringing this 
important hearing to Arizona.
    President Nez and Governor Lewis, in your testimony, you 
both highlight challenges and barriers that are unique to our 
friends in Indian Country. Both of you spoke about the role of 
institutional barriers related specifically to access as it 
relates to a P.O. box, and the role that residency plays 
spanning States or local jurisdictions, and the role that 
location election officials play inhibiting voting information 
and the potential for a right to vote by mail.
    Can you both expand a little bit more on this and the role, 
the specific challenges that your communities face related to 
the P.O. box and the jurisdictional issues related to receiving 
ballot information, and how that affects individuals' 
opportunities to vote? President Nez.
    Mr. Nez. Thank you, Madam Chairwoman and Representative 
Aguilar, and thank you for the question. You know, the barriers 
that we see on the Navajo Nation are many. But one of the 
things that we do in our nation is, when there is a day of 
elections, it is a day to bring everybody together, to catch up 
with family members, to catch up on politics, and it is really 
a social event.
    You know, when it comes to mailing in ballot provision, 
some of our citizens opt not to get mail-in ballots to their 
homes or to their boxes. But as was mentioned in the written 
testimony, that there may be at times as many as five families 
sharing a P.O. box, there is not enough post office boxes in a 
community that can take care of many of those citizens. So at 
times, you know, there may be some confusion by the Postmaster, 
and ballots get lost, or they are not given to the family 
member.
    And so one of the things that we are advocating for at the 
Federal level is a little bit more resources so that we can 
have larger post offices on the Navajo Nation.
    The other is also about the limited resources on getting 
information to our Navajo citizens. We are very rural, and that 
is why we are advocating on more broadband capability in rural 
Arizona, let's put it that way, that includes Tribes, where we 
can get instant information through the internet, and so that 
any type of election changes we could get, as well as getting 
up-to-date changes in the election law.
    Like, for instance, I will give you one example here in the 
State of Arizona. Senate Bill 1154 recently passed through the 
State legislature changed the elections to the first Tuesday in 
August. And so on the Navajo Nation, we had elections, Navajo 
elections and county, State, and Federal elections on the same 
day.
    Now, with the change of the date, you know, if we are 
talking about--I think Madam Chairwoman and Representative 
Butterfield mentioned voter participation. Navajo elections, 
when we vote for Navajo candidates for our own government, 
voter participation is about 40-plus percent turnout. So the 
reason why we put it the same time as county, State, and 
Federal elections, is to get that voter participation up high, 
and it did work. It did work.
    And now with the changes, we believe that the voter 
participation will decline for county, State, and Federal 
elections. And that news is new to a lot of our constituents 
out on the Navajo Nation. So how do we get that information 
out? It is always through PO box or some other type of social 
media, but not everybody has internet access.
    So those are some concerns that we have. And thank you for 
the question, Representative Aguilar.
    Mr. Aguilar. I appreciate it.
    Governor Lewis, briefly.
    Mr. Lewis. Thank you. In 2012, a number of our community 
members were turned away because of the strict enforcement of 
the 2012 voter identification laws. So the community tried to 
work with--and this was in Pinal County. And the community 
tried to work with Pinal County in a proactive fashion leading 
up to the 2016 election. We tried to remedy the voter address 
issue so that no community voters would be turned away.
    The county revised their poll worker training material 
concerning voter identification to address reservation voters 
and include Tribal identifications as an acceptable form of 
identification. The county also agreed to test an early voting 
site for 1 day during the 2016 general election period on the 
reservation, providing an opportunity for early voting without 
showing identification, and that actually increased some of the 
votes in Pinal County from our community members.
    But still, despite those improvements, the community had 
Pinal County Tribal members located in Pinal County who were 
still turned away at the polls and did not vote in the 2016 
election.
    So voter identification laws in Arizona and nontraditional 
Tribal address problems still remain a huge barrier for the 
community voters.
    Chairwoman Fudge. Thank you.
    Mrs. Lesko, you are recognized for 5 minutes.
    Mrs. Lesko. Thank you, Madam Chairwoman. And thank you, 
both of you, for being here. This is a really good opportunity 
to hear the unique problems that you have on your nations, and 
so thank you.
    I do have a question for either one of you. With these 
unique problems that you have, have you worked directly with 
the Secretary of State, Katie Hobbs, to try to address these 
issues, and has anything been done? Either one of you.
    Mr.--President Nez.
    Mr. Nez. Okay. Thank you, Madam Chairwoman, Representative 
Lesko, and community members. We are working with the Secretary 
of State as well as the county recorders that are within the 
Navajo Nation. And, you know, at times, we do have to fight 
very hard and even to the point where we have to take it into 
the courts. And right now, we have settled a case with the 
Secretary of State as well as a couple of the counties in the 
State of Arizona in terms of their focusing on bringing more 
Navajo speakers to the polling sites and, not just during 
Election Day, but also the early voting, early voting sites 
that get proposed by the counties and even the mobile early 
voting sites. And so those are being addressed.
    We are working hard, just as I mentioned in my testimony. I 
think we have a good working relationship, but at times, we do 
have to let them know and remind them of the Voting Rights Act 
Section 2 and Section 5, and let them know that we are 
concerned that our Navajo speakers on the Navajo Nation are not 
being given the opportunity to get their explanation on voting 
and voting participation.
    Mrs. Lesko. All right.
    Mr. Nez. Thank you.
    Mrs. Lesko. And the other thing that was brought up 
previously was that we have fewer polling locations throughout 
the State, and I know that one of the answers given for that is 
because we have increased vote by mail so much in the State. So 
I am trying to get an idea if you know, either one of you, how 
many of your members vote by mail, what percentage? Has it 
grown? Because that really is one of the main reasons at least 
statewide that we have decreased the number of polling 
locations is because, statewide, 75 percent of the voters now 
vote by mail. So do either one of you know how many people in 
your nations vote by mail?
    Mr. Lewis. Madam Chairwoman, Members of the Subcommittee, I 
don't have specific numbers, but I know that it is a 
significantly smaller percentage that vote by mail. And just to 
really draw an important connection that President Nez, my 
fellow Tribal leader said, Election Day is important to us. It 
is about family. It is about reconnecting. We have--on our 
reservation, we sponsor traditional meals at the polling sites, 
aside, you know, for our community member voters to come out, 
to proudly come out and vote as their right as U.S. citizens 
but also members of sovereign nations as well.
    It is a tradition. It is an ingrained tradition among our 
communities, especially with our elders as well, our veterans. 
Sometimes our elders bring their young grandchildren to model 
for them that voting is important as well. So, you know we have 
a proud history of the voting day being significant across our 
community as well.
    In regards to proactive solutions with Secretary of State 
Hobbs, the community has worked with the Inner-Tribal Council 
of Arizona, a consortium of Tribes here in Arizona, where we 
actually are happy to have hosted just maybe about 4 months ago 
a gathering that Secretary Hobbs came with her staff, Inner-
Tribal Council, county recorders, and Tribal representatives to 
work together on this.
    So in one room for all day we had those county recorder 
representatives from across Arizona, and we brought them 
together with those Tribal representatives so that, if there 
are any issues, that, you know, they were all of the same mind, 
that we have ongoing training for the latest voting laws, you 
know, that there would be coordinated, not a Tribe versus a 
county, but also to increase contact points between Tribes, and 
those county recorders that, as you know, is critical, to make 
voting day be as successful as possible.
    Mrs. Lesko. Well, I am glad you are working together, and I 
just--I know my time is up, but there is also an agency that is 
under the jurisdiction of the Committee on House Administration 
called the Election Assistance Commission. And so they are 
supposed to help with resources, so possibly they could be a 
help as well. Thank you very much for being here.
    Chairwoman Fudge. Thank you.
    Mr. Grijalva, you are recognized for five minutes.
    Mr. Grijalva. Thank you very much, Madam Chairwoman, and 
thank you for your leadership on this Subcommittee and bringing 
this attention here to Arizona and to our native people in the 
State. It is important that all communities in this very 
important discussion about voting access, franchise, and 
participation be included. And I very much appreciate that, and 
thank you for that.
    A couple of ironies--Arizona was one of nine States prior 
to the Shelby decision that was required for preclearance on 
many issues, even in the upholding of the harvesting issue that 
the Supreme--that the Ninth Circuit said. They said if 
preclearance would have existed, this legislation and this 
effort would not have occurred.
    Having said that, I think that historically, there is a 
reason why Arizona was included in those nine states, and those 
vestiges have not all completely gone, and we all know that. 
And hopefully, this will lead to a dispassionate factual 
discussion about what needs to be done to make sure that every 
eligible voter in this country and in this State has a chance 
to vote.
    Governor, Mr. President, I want to talk about two things: 
Voter ID, and you mentioned that and maybe amplified a little 
bit on that, and then also I think, you know, the issue of 
access to polling areas. And the other one is the one about 
given the distances, given accessibility, given the issues with 
mail access, addresses. H.R. 2023 prohibited the gathering of 
ballots in communities and particularly--and put stiff fines on 
that as an overreach on a non-existing issue of voter fraud. 
But I am asking the question because in response to what that 
legislation means to particularly areas that you serve and 
eligible voters on your Tribal lands and remote areas and how 
that affects and does not affect, if you wouldn't mind. Mr. 
President.
    Mr. Nez. Well, thank you, Madam Chairwoman and 
Representative Grijalva, and again, Members of the Committee. 
Let me just give you a perspective, an overview of what Navajo 
is looking at, and I think a lot of other Tribes throughout the 
country. And I agree with you, Madam Chairwoman, when you say 
that the right to vote is sacred.
    You know, Navajo Nation and many Tribes across the country 
would like to see Congress pass a Native American Voting Rights 
Act, and it would address the many concerns that have been 
raised today and are being raised today.
    Voting issues are based on policies passed at the county 
and/or the State level, and it varies from county to county, as 
you heard today, and that causes confusion in Indian Country. 
The Native American Voting Rights Act would provide much needed 
consistency in the administration of voting in Indian Country. 
It would honor the government-to-government relationship with 
the Federal Government, and I do agree as well too. And if that 
is going to take some time, then we do have to advocate to keep 
the Voting Rights Act intact, Section 2 and Section 5.
    We are coming before a Census count right now, right? That 
is no secret. Navajo Nation is doing their very best to count 
every Navajo citizen there, but I just want to keep you 
informed that a lot of our family members have to leave the 
Navajo Nation for other opportunities, whether it is jobs or 
university or colleges, and sometimes they get counted 
elsewhere. And so we are encouraging our Navajo citizens that 
are visitors outside the nation to make sure they get counted 
because, you know, when it comes to redistricting, we have an 
accurate count so that we can have our representation in the 
counties, in the State, as well as in Washington, D.C.
    Thank you, Madam Chairwoman.
    Mr. Lewis. Madam Chairwoman, Members of the Subcommittee, 
of course, I think history is crucial to this as well. In 2004, 
Arizona voters approved the Arizona Taxpayer and Citizenship 
Protection Act, also known as Arizona Proposition 200, which 
required voters to present evidence of United States 
citizenship prior to voting.
    In 2013, elements of Proposition 200 were overturned by the 
U.S. Supreme Court in Arizona v. Inner-Tribal Council of 
Arizona, Incorporated, in which the Supreme Court struck down 
the parts of Proposition 200 that required proof of citizenship 
from individuals who use Federal voter registration forms to 
vote, but allowed the State to continue to require voters to 
show identification at polling places.
    So there are still--even though portions of that were 
struck down by our high court, there are still barriers. There 
are still critical issues that need to be changed, to be 
remedied. And on behalf of the Gila River Indian Community, I 
think it is time, overdue time to get Federal legislation to 
protect the rights to vote on Indian reservations among its 
first Americans because we do have a unique relationship. We do 
have unique situations on Indian reservations from traditional 
addresses to the barriers that are inherent on Indian 
reservations, Madam Chairwoman.
    Chairwoman Fudge. Thank you so very much.
    Mr. Stanton, you are recognized for five minutes.
    Mr. Stanton. I want to thank Phoenix College for hosting 
this important hearing, to you, Madam Chairwoman and former 
Mayor Fudge. Thank you for doing this hearing. During my time 
in Congress, I have come to know you as one of the most 
passionate and effective voices for the right of every American 
to have equal access to the ballot box, and I want to thank you 
for having this important hearing here in Arizona.
    And to my friend on my left, the Dean of our delegation, 
the Chair of Natural Resources Committee, Congressman Grijalva, 
thank you for all you do to protect Federal lands, particularly 
our Native American lands here in Arizona and around the United 
States of America.
    And he is not here, so I will say things in absentia about 
him. I want to take a quick moment to recognize Congressman 
Gallego as well. He is one of the leading sponsors of H.R. 
1694, the Native American Voting Rights Act, which I believe 
after this hearing, everyone will agree we need to pass in 
Congress and send to the President's desk. I am proud to be one 
of the original co-sponsors of the bill. In fact, we have five 
House members from Arizona who are co-sponsors of the bill. I 
am hopeful that our two U.S. Senators will take a look at the 
companion bill in the Senate and add their names as co-sponsors 
as well.
    And I want to thank our two outstanding witnesses, Governor 
Lewis, President Nez, two of the finest, most effective leaders 
I know. I have had the pleasure of working with Governor Lewis 
for many years, especially on the issues of water and water 
planning for the State of Arizona. He is a visionary leader. 
Forward thinking leadership has meant a lot for Arizona. 
President Nez was sworn in in January, just like myself, and I 
have had the chance to spend time with him when I visited the 
Navajo Nation for a few days just last month. Let me tell 
everyone here, you can already see the positive difference he 
is making, and there is so much hope for the future. We are 
fortunate to have both of you here.
    It is no secret that elections in Arizona historically and 
still today are a mess. The Nation took notice in March of 2016 
when thousands of voters in Maricopa County waited hours, 5 and 
6 hours, to vote in the Presidential preference election. I 
remember going out to the long lines myself, handing out water 
and cookies to those who were willing to wait unacceptable 
length of time to do their civic and patriotic duty.
    It is still fresh in my mind how election officials were 
caught like deer in the headlights. They drastically cut the 
number of polling sites, and they thought nobody would notice. 
Well, we did notice. We saw firsthand how those cuts 
disproportionately hurt lower income and underrepresented 
communities. It is an important reminder of why, for decades, a 
bipartisan majority of Congress and Presidents of both parties 
renewed the Voting Rights Act and why Arizona was a 
preclearance State.
    I was the Mayor of Phoenix at that time, and the day after 
that election, I asked the Department of Justice to investigate 
what took place. My letter to the DOJ provided additional 
details I don't have time to cover today. So, Madam Chairwoman, 
I would like to enter that letter into the record, if I may.
    Chairwoman Fudge. No objection, so ordered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Stanton. Thank you so much.
    A couple of questions. President Nez, a few weeks ago, I 
had a conversation with the Navajo Nation's elections director. 
He expressed a great deal of frustration about the level of 
assistance that you are getting to conduct fair and open 
elections. What kind of support do you need from the State and 
county officials for the Navajo Nation community to have better 
access to the polls?
    Mr. Nez. Thank you for the question. Madam Chairwoman, 
Representative Stanton, community members, I did briefly 
mention our lawsuit against the State as well as the counties 
in providing better assistance to our Navajo-speaking citizens. 
That is the first step. We have had a dialogue. Matter of fact, 
we had a meeting with Navajo County and Navajo County officials 
and with the recorder, and I think more of those types of 
meetings will help in clarifying some of the barriers between 
the county and the Navajo Nation.
    But in terms of actual assistance I think having the State 
legislature members come out to Navajo Nation to hold these 
types of hearings, just as you are doing today, which is very 
crucial to know the ins and outs of Indian Country. And we look 
forward to being a host to some of our representatives so that 
they know, because a lot of the laws that are being changed for 
the State of Arizona go through the legislature, and sometimes 
they don't know that it hurts the nation.
    And I gave you a good example of that, changing the primary 
election date. And now, we worry that voter participation may 
decrease because the election is not at the same time as the 
Navajo Nation elections. And so that percentage could decrease 
and affect our representation in the county, State, and Federal 
Government.
    Mr. Stanton. I think it is a great point. I will just 
finish up with this, by making the point that so many of our 
elected officials who may come from urban areas just don't 
quite understand the challenges your communities face when it 
comes to access to mail. So I think that point deserves a lot 
more exploration. I think we are going to do so throughout this 
hearing.
    Thank you.
    Chairwoman Fudge. Thank you very much.
    Mr. Gallego has joined us, and so we would like to hear 
from the representative of this district.
    Mr. Gallego, you are recognized.
    Mr. Gallego. Thank you, gentlemen. And thank you, first of 
all, to my leaders here, Mr. Butterfield and Ms. Fudge, for 
organizing this. And they have been great leaders in the voter 
enfranchisement world and have been for quite a while. I am 
very honored to have them here in my district. I apologize for 
being late. I had to take my son to the dentist, and 
apparently, two and a half-year-olds do not like dentists, so 
that was a struggle. But I really do appreciate both of you 
gentlemen for being here, also for always being leaders within 
the Native American community.
    You know, I think I remember my days at the Arizona State 
House, and I certainly remember when there were approaches and 
attempts to stop ballot collection, and one of the things I 
kept hearing is the potential for voter fraud. Now, in my 
experience, there was never any--there never has been any 
proven at all accusation of voter fraud when it comes to 
collection of mail-in ballots.
    Do you know, either of you gentlemen, if you have any 
history or know of any history of collection--or fraud when it 
comes to mail-in ballot collection that occurred on your 
prospective reservations? We will start with my right. Governor 
Lewis.
    Mr. Lewis. Madam Chairwoman, Members of the Subcommittee, I 
have never heard of any--any sort.
    Mr. Gallego. President Nez.
    Mr. Nez. Not to my knowledge as well, Representative 
Gallego.
    Mr. Gallego. And since this ``ballot harvesting'' law has 
taken place, have you heard the opposite? Have you heard of 
people not being able to actually get their ballots in because 
of this law that discourages, you know, active participation of 
people trying to actually, you know, have people vote, 
especially, as we know, in both the Gila River as well as the 
Navajo Nation, the long distances that you have to travel with 
not great roads? Have you heard of people basically being 
disenfranchised because of this law?
    Mr. Lewis. Madam Chairwoman, Representative Gallego, I have 
definitely seen the barriers increase for our voters on the 
Gila River Indian Community voting at the polls, access to 
voting, access to early voting being--at times, feeling that 
they are being singled out and discriminated for being Native 
Americans living on an Indian reservation.
    Mr. Gallego. And, Chairman Nez.
    Mr. Nez. I was just going to say--thank you, Representative 
Gallego--the language barriers, I mentioned that earlier to the 
Subcommittee members, the Navajo language, a lot of those--a 
lot of the information, all the information that we receive 
from the recorders, even the Secretary of State, they are not 
translated into or written in the Navajo language. And so if 
someone that is a non-English speaker gets a ballot, and they 
don't read what is on the envelope, which states that you have 
to sign the envelope before you turn it in, and I think there 
are instances where some of our members didn't sign that, and 
they were told that it wasn't a legitimate ballot.
    And the other is turning in the ballots. When an individual 
turns in the ballot, it has to be that individual turning in 
the ballot. Sometimes--I talked earlier about transportation 
and families helping each other out. Sometimes people don't 
necessarily have to go all the way to their county headquarters 
or the county seat which, you know, from Kayenta to Holbrook is 
three hours, and I don't see grandma taking that three-hour 
trip. They might give it to one of their relatives to drop it 
off, but then when they do that, it is invalid.
    Mr. Gallego. Just a follow-up question, if I remember the 
law as written, the first time they try to run it, and the 
second time is that only an immediate family member can take a 
ballot in, if I remember correctly. Now, in both Navajo and 
Gila River tradition, the idea of family is a lot more 
expansive than an Anglo family, correct? Could you kind of 
explain how this more Anglo-centric point of view of family 
basically disenfranchises your communities? We will start with 
President Nez.
    Mr. Nez. And thank you again for the question, 
Representative Gallego, and Subcommittee members. For the 
Navajo Nation, I am sure for other Tribes, we have a clan 
system where, you know, we have floor plans, and we relate to 
each other in that type of kinship there on the Navajo Nation. 
So it might not be an immediate family or an extended family, 
but somebody could be my brother on the other side of the 
Navajo Nation. And so that is something that folks off the 
Navajo Nation have a hard time grasping.
    Mr. Gallego. Governor Lewis.
    Mr. Lewis. Thank you. And extended family is important, is 
a bedrock of our community as well. You know, if you were 
raised by your aunt or your uncle there, for instance, for all 
intents and purposes, in our custom and tradition, they are 
your father or your mother as well. Grandparents. And also for 
me, my late grandfather, his two sisters were one of our first 
poll workers as well, and they made sure that we voted. And 
they made sure that what would be my first cousins or my second 
cousins, they are all family. And so I think that is important 
that we look at our families as expansive. We don't look at 
family in a constrictive non-Anglo sense.
    Mr. Gallego. Thank you, Madam Chairwoman.
    Chairwoman Fudge. Thank you very much.
    As we wrap up this session, let me thank you both. If our 
next panel would prepare themselves to come up, let me just 
make a few closing remarks.
    Let me first just apologize to you for the injustices you 
have endured in this Nation. I think about history, and I 
realize that my ancestors were brought here against their will. 
Many people came of their own free will, but you were here. And 
I think that it is important for us to understand that as we 
talk about the greatness of America, America is great because 
of her ability to repair her faults. It is time for us to do 
what is right by your nation. It is time for us to make you 
feel as if you are the kind of citizens that you always have 
been because you were here first. And I think that it is also 
important that as we measure ourselves against the rest of the 
world, and other nations want to measure up to us, that we have 
to set the right example, and we should not in any way ever try 
to make it more difficult for people to vote. We should be 
encouraging people to vote. It is unconscionable to me that 
somebody would have to drive an hour or two or three hours to 
cast a ballot. It is un-American.
    And with that, I would thank you again, and we will prepare 
for our next panel. Thank you very much.
    Chairwoman Fudge. Let me introduce our second panel. First 
we have Patty Ferguson-Bohnee.
    Ms. Ferguson-Bohnee. Bohnee.
    Chairwoman Fudge. Bohnee? All right.
    The Director of the Indian Legal Clinic, Faculty Director 
of the Indian Legal Program, and Clinical Professor of Law and 
the Sandra Day O'Connor College of Law at Arizona State 
University.
    Lorena C. Van Assche.
    Ms. Van Assche. Van Assche.
    Chairwoman Fudge. Van Assche is a lawyer and the current 
Chair of the Arizona State Advisory Committee to the U.S. 
Commission on Civil Rights.
    I am going to give it a shot. Montserrat Arredondo.
    Ms. Arredondo. Yes.
    Chairwoman Fudge. Is the Table Director at One Arizona, a 
coalition of 19 organizations focusing on voter registration 
and civic engagement. She began her career in advocacy in 2010 
when the infamous ``show me your papers'' bill, S.B. 1070, 
passed in Arizona.
    Mr. Alex Gulotta is the Arizona State Director of All 
Voting is Local where he fights for the right to vote through a 
unique combination of community power, of community power 
building, data-driven advocacy, and strategic communications. 
Prior to that, he served the Access to Justice community for 
more than 30 years as an antipoverty advocate.
    Darrell Hill.
    Mr. Hill. Darrell.
    Chairwoman Fudge. Darrell. I am just striking out today.
    Darrell Hill is the ACLU of Arizona's Policy Director.
    And lastly but not least, Arizona State Senator Michelle 
Ugenti-Rita.
    Mr. Calvert. You got it.
    Chairwoman Fudge. Representing the 23rd District. The 
Senator is an Arizona native and was first elected to the 
Arizona State Senate in 2018. She previously served in the 
Arizona House from 2010.
    I welcome you all.
    We will begin with Ms. Bohnee.
    And you are recognized for five minutes.

   STATEMENTS OF PATRICIA FERGUSON-BOHNEE, PROFESSOR OF LAW, 
  INDIAN LEGAL CLINIC, ASU LAW SCHOOL; LORENA C. VAN ASSCHE, 
  ARIZONA STATE ADVISORY COMMITTEE, U.S. COMMISSION ON CIVIL 
   RIGHTS; MONTSERRAT ARREDONDO, ONE ARIZONA; ALEX GULOTTA, 
 ARIZONA STATE DIRECTOR, ALL VOTING IS LOCAL; DARRELL L. HILL, 
  POLICY DIRECTOR, ACLU OF ARIZONA; AND MICHELLE UGENTI-RITA, 
             STATE SENATOR, STATE SENATE OF ARIZONA

             STATEMENT OF PATRICIA FERGUSON-BOHNEE

    Ms. Ferguson-Bohnee. Thank you very much, Chairwoman Fudge, 
and Members of the Subcommittee.
    Chairwoman Fudge. Could you move the microphone a little 
closer?
    Ms. Ferguson-Bohnee. Yes, ma'am.
    Good morning, Chairwoman Fudge, and Members of the 
Subcommittee. Thank you for inviting me to speak on this 
important issue of voting rights and elections administration.
    My name is Patty Ferguson-Bohnee. I am the Director of the 
Indian Legal Clinic at the Sandra Day O'Connor College of Law. 
The clinic runs the Native Vote Election Protection Project in 
Arizona, a nonpartisan effort to protect Native American voting 
rights. As you heard, there is a long history of voter 
suppression in Arizona. Things have improved with the Voting 
Rights Act. However, Native Americans continue to face 
obstacles.
    In order to understand Native American voting challenges, 
one must recognize the vast differences and experiences, 
opportunities, and realities facing on-reservation voters. 
Isolating conditions such as language, socioeconomic 
disparities, lack of access to transportation, lack of 
residential addresses, lack of access to mail, the digital 
divide, and distance are just some of the factors that impede 
access to the polls and participation in the political process.
    Unfortunately, decisionmakers often fail to consider these 
factors when adopting new laws or practices that impact the 
right to vote. A recent study found that low levels of trust in 
Government, lack of information on how and where to register, 
long distances to register and to vote, low levels of Internet 
access, hostility towards Native Americans, and intimidation 
are obstacles to Native American voter participation in 
Arizona.
    Native Americans do not have equal access to voter 
registration. Many voters must travel long distances off-
reservation to register to vote, in some cases 95 miles one 
way. Further, in 2016, only one of nine covered jurisdictions 
subject to Section 203 of the Voting Rights Act for Native 
Americans languages translated voter registration information 
in the covered language. And while online voter registration is 
possible for off-reservation voters, this option is limited for 
on-reservation voters.
    First, less than half of the homes on Tribal lands have 
reliable broadband access. Second, even if a voter has internet 
access, the State does not allow Tribal IDs to be used to 
register to vote online. Third, individuals with nontraditional 
addresses cannot use the online process to register to vote.
    In addition to voter registration barriers, Native 
Americans also have unequal access to in-person early voting 
opportunities. While every county has in-person early voting 
off-reservation, there are limited opportunities for in-person 
early voting on-reservation. If offered at all, most in-person 
early voting is limited to a few hours on one or two days. In 
2016, ten reservations had some form of in-person early voting; 
and only five had in-person early voting in 2018.
    One of the most egregious examples of lack of access to in-
person early voting involves the Kaibab Paiute Tribe. Kaibab 
Paiute residents must travel over 280 miles one way to 
participate in early voting. These voters do not have a polling 
location on or near the reservation on Election Day. In fact, 
Mohave County moved the Tribe's polling location to Colorado 
City; and when the Tribe requested a polling location on the 
reservation for Election Day voting, it denied it, citing ADA 
compliance issues.
    Vote by mail is not the solution for Tribal communities. 
Lack of access to home mail delivery, public transportation, 
vehicles, and language assistance, as well as long distance to 
post offices, make it difficult for Native voters to vote by 
mail.
    In addition, voter ID continues to be a problem for Native 
voters. Even when a voter has a valid form of Tribal ID, these 
are rejected in each election due to insufficient poll worker 
training or because of problems with nonstandard addresses. 
Until recently, voters could vote early without showing an ID. 
However, in 2019, the State enacted a law, requiring voters to 
also show ID if they vote early in person, while voters who 
vote early by mail have no such requirement. Not only does this 
violate equal protection, it will disproportionately impact 
Native voters, specifically Native language speakers who can 
only receive language assistance in person.
    Prior to Shelby County, covered jurisdictions would have to 
consider whether a law would have a negative impact on minority 
voters. This is no longer the case. Legislation affecting 
voting often appears neutral with the stated goal of preventing 
voter fraud. The application of said legislation, however, has 
a disparate impact on minority voters. Without Section 5's 
protection, there is a new concern that voting laws and 
practices will continue to be adopted that suppress the Native 
American vote. These concerns include closure of polling 
locations, adopting all vote-by-mail elections, and voter ID 
laws. Using pretexts such as ADA and voter integrity to 
undermine voter rights should not be allowed.
    Thank you for the opportunity to address the committee. I 
look forward to any questions you have.
    [The statement of Ms. Ferguson-Bohnee follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Fudge. Thank you, Ms. Bohnee.
    Ms. Van Assche, you are recognized for five minutes.

               STATEMENT OF LORENA C. VAN ASSCHE

    Ms. Van Assche. Thank you, Chairwoman Fudge, and thank you 
to the community for the opportunity to testify today.
    I am the Chair of the Arizona State Advisory Committee the 
U.S. Commission on Civil Rights; and in March 2018, the Arizona 
Committee convened a public meeting in Phoenix where we heard 
testimony from Government and election officials, advocacy 
organizations, election and voting experts, and voter 
perspective groups on barriers to voting in the following 
areas: Access to polling locations, bifurcated voter 
registration system, voter ID law, and restriction on mail-in 
ballots, additionally on the impact of the Shelby County v. 
Holder decision.
    After reviewing the oral and the written testimony, the 
Arizona Committee prepared an advisory memorandum that was 
submitted to the U.S. Commission on Civil Rights; and my 
testimony today will attempt to summarize the findings that are 
found in the advisory committee.
    And I will start with first section on access to polling 
locations. As Chairwoman Fudge identified in her opening 
remarks, in the aftermath of Shelby County v. Holder, Arizona 
made--Maricopa County made headlines for the long wait times. 
Nearly every county reduced the number of polling locations. In 
Maricopa County, officials cut polling locations by 85 percent, 
compared to the 2008 presidential preference election, and 70 
percent compared to the 2012 presidential preference election.
    Election officials who testified justified these closures 
due to a decrease in demand, because of an increase in early 
voting preference, cost pressures, and less locations willing 
to serve as polling locations because of increased liability, 
lack of security, lack of compliance with ADA, and insurance 
concerns. Some of these election officials testified that the 
remedy--to remedy the closure of polling locations, counties 
have the discretion to implement a vote center model.
    Members of the disability community testified that they 
were especially impacted. They said that when they showed up, 
the poll workers lacked knowledge on how to operate accessible 
voting machines and even failed to turn on the machines. They 
testified that the polling locations lacked wheelchair ramps or 
elevators and sufficient accessible parking spaces.
    We also heard testimony that transportation was a barrier 
for our protected voter groups to access the polls, impacted 
disabled--the disabled community who often rely on public rides 
and, due to the wait times, could simply not wait long enough 
to vote and get back on their public rides, as well as the 
Native Americans who reside in reservations, as you have heard, 
some spanning thousands of square miles and have few or no 
polling locations available to them.
    We also heard testimony on language access. The committee 
heard testimony that poll workers are not adequately trained to 
deal with nonnative English speakers. This barrier to voting is 
especially problematic for Native American voters who often are 
non-native speakers.
    The third area is voter ID and bifurcated voter 
registration system. As the committee is aware, Arizona has a 
dual-registration system that allows individuals to register to 
vote with the Federal form for Federal elections only that 
requires voters in the State and local elections to meet 
additional voter-approved proof of citizenship requirements.
    Testimony revealed that Arizona's bifurcated voter 
registration system is confusing and may not--and may have 
prevented voters from participating in State and local 
elections due to the proof of citizenship requirement.
    The State's paper voter registration form is different from 
the online voter registration form available through 
servicearizona.com. The State's paper voter registration form 
provides a space for applicants to add a Tribal ID number that 
is especially beneficial to our Native Americans citizens but 
that is unavailable on the online registration system. 
Therefore, Native Americans who choose to register to vote 
online face additional challenges when completing their online 
form.
    The last area that we heard testimony on was the 
restriction on mail-in ballots or what is commonly known as the 
ballot harvesting law. In March 2016, Arizona passed H.B. 2023 
which makes it a felony for individuals to knowingly collect 
and turn in another voter's completed ballot, even with the 
voter's permission. There are some exceptions that exist for 
family members, household members, or caregivers of the voter 
as identified within the statute.
    This is part of ongoing litigation. Last October, 2018, a 
three-judge panel of the Ninth Circuit upheld H.B. 2023. 
However, in January of this year the Ninth Circuit granted a 
full panel review of the small panel ruling. And so that, 
again, is part of the ongoing litigation.
    Thank you for your time.
    [The statement of Ms. Van Assche follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Fudge. Thank you very much.
    Ms. Arredondo, you are recognized for five minutes.

               STATEMENT OF MONTSERRAT ARREDONDO

    Ms. Arredondo. Thank you. Chairwoman Fudge, for having me 
here today and everyone on the panel.
    Again, my name is Montserrat Arredondo, and I am with One 
Arizona. We are a coalition of 20 Federal and 501(c)3 
organizations that work to expand voter registration across the 
State, and we are looking to close a gap between white voters 
and people-of-color voters in the State.
    We were founded in 2010 and have been doing voter 
registration and civic engagement work for the last 10 years, 
starting with the Latino community, because of the S.B. 1070 
law, and have expanded to other groups like our Native American 
co-panelists here today. You know, I am going to go right into 
it.
    Empathy towards voting rights for Latinos and First Peoples 
has run deep amongst Arizona leaders for decades. As 
unauthorized immigrants to Arizona spiked in mid 2000s, cynical 
conservative politicians like Joe Arpaio and Russell Pearce 
once again discovered they could stoke racial animosity for 
political gain.
    One of the first policy outgrowths of the movement was a 
2004 white supremacy omnibus ballot initiative entitled in 
classic old-world fashion as a, ``Taxpayer and Citizenship 
Protection Act.'' This measure included a voter ID law at 
first--a first of its kind documentary proof of citizenship 
requirement for voter registration and new registration on 
access to public services for certain noncitizens.
    While Arizona has in some, but not all respects, moved 
beyond the overheated anti-immigrant atmosphere of that era, 
the conservative movement against democracy has only 
intensified in recent years.
    Since Governor Ducey came into office in 2015, we have seen 
a law making it a felony to collect another voter's ballot, 
even with that voter's permission, and turning it in to be 
counted. An expansion of the Arizona Supreme Court allowed 
Ducey to appoint a courier legislator for anti-Government 
organizations, the most aggressive local preemption law in the 
country, designed to--I'm sorry--progressive policy at the 
local level.
    A comprehensive deregulation of the State's campaign 
finance law attacks on voting rights to use ballot measures 
designed in the word of the State GOP chair for the ballot 
initiatives to be thorough and out for minor errors regarding 
language and paperwork.
    Attacks on Arizona's clean election system, a beacon of 
light in all the darkness, reoccur every legislative cycle.
    Additionally, we have failed to take action as a State to 
administratively ease participation like expanding technology 
that allows for realtime availability of data and communication 
between State agencies like postal services, DMVs, et cetera, 
for rapid updates and verification of registrations. This would 
also reduce the number of provisional ballots and reduce the 
number of rejected early ballots.
    The following are some of the solutions outlined from a 
report produced by One Arizona, Arizona Advocacy Foundation, 
and the Inter-Tribal Council of Arizona.
    Extend current voter registration deadlines. Many States 
have same-day voter registration insight, only minor increases 
in printing costs. Increase types of identification at all 
polling locations including student IDs, Tribal ID, and local-
issued identification, possibly a library card; reduce 
rejections of early ballot by allowing ballot postmark on or 
before Election Day to be counted.
    The report continues to outline an action plan to protect 
and expand voting rights for all eligible Arizonans and that is 
something that has been turned in to the Subcommittee here as 
well and we will continue to work in all of our organizations 
to protect the right to vote.
    Thank you for having me here today.
    [The statement of Ms. Arredondo follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Chairwoman Fudge. Thank you very much.
    Mr. Gulotta, you are recognized for five minutes.

                   STATEMENT OF ALEX GULOTTA

    Mr. Gulotta. Chairwoman Fudge and members, I am Alex 
Gulotta, the Arizona State Director for All Voting is Local, a 
collaborative housed at the Leadership Conference Education 
Fund. We vote--we fight to protect the right to vote. Thanks 
for having me today.
    Voting in Arizona is changing. Since 2013, when five 
Justices of the Supreme Court ended preclearance in Shelby 
County, these changes in election administration have been made 
without notice, without transparency, or without analysis of 
their racial impact. Here are three examples. You have heard 
some about them of how Arizona voters have been harmed.
    First, vote by mail. We have talked about ballot 
collection. In 2011, the Arizona legislature passed S.B. 1421 
that outlawed collection of mail-in ballots by community 
groups. Historically these drives were conducted by Latinos, 
African Americans, and Native American communities. The bill 
was specifically targeted to end these drives, and the US 
Department of Justice refused to preclear the bill in 2011.
    However, in 2016, after Shelby County, almost an identical 
bill was passed, H.B. 2023, the constitutionality of which is 
on review currently in the Ninth Circuit. However, Chief Judge 
Sidney Thomas said in his dissent in the panel opinion that is 
currently on review, quote, ``on review'' H.B. 2023, which 
criminalizes most ballot collection serves no purpose aside 
from making voting more difficult and keeping more African 
American, Hispanic, and Native Americans voters from the polls 
than white voters, close quotes.
    Two, polling place changes. Nationwide between 2012 and 
2018, there were 1688 poll closures in Section 5 jurisdictions, 
230 of those were in Arizona. Maricopa went from 671 to 500. 
Cochise shrunk from 49 to 17, Cochise County.
    Polling place changes cause confusion about where to vote, 
and in Arizona that means votes get rejected. In 2016, Maricopa 
voters were switched back and forth between vote centers and 
assigned polling locations and that made it 40 percent more 
likely that a voter would cast an out-of-precinct ballot and 
out-of-precinct ballots don't count in Arizona at all.
    Quoting Ninth Circuit Judge Thomas again ``this practice 
places a discriminatory burden on African Americans, Hispanics, 
and Native Americans.''
    In addition, post-Shelby, we made drastic changes to 
polling place administration without publishing any data on the 
racial impact of such changes. We have implemented vote centers 
and new technologies that may, in fact, offer benefits to 
voters but we have made these changes without doing any 
analysis of the potential racial impact and that is what really 
needs to happen.
    Third, new ID requirements. Arizona recently expanded the 
scope of its photo ID--and you have heard a little bit about 
this--making it harder to cast an in-person ballot, an early 
in-person ballot. For years, if you voted early in person, you 
filled out your ballot, you put it in the envelope, and you 
signed the outside of the ballot and that was your ID to vote. 
But in the spring of 2019, the Arizona legislature passed S.B. 
1070, requiring a photo ID for in-person ballot, in addition to 
the voter's signature.
    Arizona was not required to seek permission for this 
because preclearance is gone. Yet this restriction on early 
voting creates significant obstacles for Native Americans. In 
Arizona, just 26 percent of Native Americans live on a USPS 
postal route. To answer Congresswoman Lesko's question, on the 
PEVL, our Permanent Early Voting List, 80 percent of the people 
on the PEVL are white, 1 percent are Native American.
    Access to early in-person voting matters to Native 
Americans; but to understand this detriment of this new ID, we 
just need to look to Navajo County. Travel times are huge, and 
officials provide early in-person voting at community locations 
such as at the grocery store and at the Friday flea market. 
Voters always have their signature with them. But do they have 
their Tribal ID? Now, without it, they will be deprived of 
their right to vote in their communities.
    In summary, I would like to say that fair and equitable 
access to the ballot box is a cornerstone of our democracy. We 
must ensure that every voter can fully participate and that the 
fundamental right to vote is protected at every level, and that 
means a restored and modernized Voting Rights Act.
    Thank you.
    [The statement of Mr. Gulotta follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairwoman Fudge. Thank you.
    Mr. Hill, you are recognized for five minutes.

                  STATEMENT OF DARRELL L. HILL

    Mr. Hill. Thank you, Chairwoman Fudge, and Members of the 
Subcommittee. My name is Darrell Hill. I am the Policy Director 
for the ACLU of Arizona.
    With over 65,000 members, activists, and supporters 
statewide, the ACLU of Arizona works across party, racial, 
gender, and economic lines to advance the mission of defending 
the principles of liberty and equality embodied in our 
Constitution.
    I am going to skip ahead past H.B. 2023 since we have heard 
a lot about that.
    During 2019 Arizona legislative session, Arizona saw 
renewed attacks on the right to vote including efforts to purge 
early voting roles, criminalize paid signature collection, and 
to prohibit voters from returning ballots they received in the 
mail in person. None of these provisions sought to expand 
access to the ballot or increase voter participation. Rather 
they represented attempts to make participating in our 
democracy more difficult.
    Two new laws passed by Arizona legislature and signed by 
Governor Ducey, S.B. 1072 and S.B. 1090, placed new voter ID 
requirements to early and emergency voting.
    Voter ID requirements disproportionately impact minority 
voters, senior citizens, voters with disabilities, and others 
who do not have photo ID nor the money to obtain ID. 
Approximately 11 percent of all voting-eligible adults have no 
Government-issued photo identification.
    Voter ID laws are often discriminatory and have a 
discriminatory impact. Twenty-five percent of black Americans 
of voting age lack a driver's license or a state-issued ID 
compared to just 8 percent of white Americans.
    Voter impersonation fraud, the only type of fraud that ID 
requirements would prevent, is virtually nonexistent in Arizona 
and across America. Voter ID laws restrict access to the voting 
booth by doing nothing to protect against real threats to our 
voting systems.
    Since Shelby, Arizona has also seen an increase of poll 
closures which led to increased barriers to voting. For the 
Presidential Preference election in 2016, officials closed--
opened only 60 locations down from 403 in 2008, a nearly 85 
percent decline. The results were chaos. Lower income and 
minority communities bore the brunt of the impact.
    In primarily Anglo communities like Cave Creek, there is 
one polling place per 8500 residents. In Phoenix, a majority 
minority city where 40.8 percent of its 1.5 million residents 
are Hispanic, there is one polling location for every 108,000 
residents.
    The reduction in polling places across metro Phoenix 
created long lines at polling centers across the metropolitan 
areas, forcing some voters to wait up to five hours after the 
polls closed to cast a ballot.
    Arizona voting rights problems are compounded by our 
incarceration crisis. Not only does the United States continue 
to lead the world in the rates of incarcerated citizens, it is 
one of the world's strictest countries in terms of denying 
citizens the right to vote due to convictions for crime.
    Over 6 million Americans are currently disenfranchised due 
to a felony conviction. Arizona has the eighth highest rate of 
felony disenfranchisement in the United States. Over 220,000 
possible voters, or 4.25 percent of Arizona voting age 
population, are ineligible to vote due to a felony conviction. 
Arizona's rate of felony disenfranchisement has nearly tripled 
over the last 25 years. Over 150,000 of those of eligible 
voters in Arizona have completed the full length of their 
sentence, probation, or parole.
    Arizona utilizes a complicated judicial application process 
where persons convicted of two or more felonies must apply have 
their voting rights restored at the completion of all terms of 
their sentence. The decision of whether to restore a person's 
right to vote is left completely to judicial discretion with no 
guidance for when a person's rights should be restored. The 
process leads to flawed, biased outcomes that conditions a 
person's constitutional right to vote on the ability to 
persuade judges who have different individualized criteria for 
restoring voting rights.
    The restoration of voting rights should be automatic when 
released from incarceration. States should pass legislation 
providing that rights of individuals who are citizens of the 
United States to vote in any election shall not be denied or 
abridged because of that individual's conviction of a criminal 
offense.
    In addition, States should no longer use costly 
restitution, fines, or fees as barriers to the restoration of 
voting rights. These practices criminalize poverty and 
exacerbate the racially disparate impact of felon 
disenfranchisement. States should eliminate repayment of legal 
financial obligations as a condition for rights restoration.
    Voting is a fundamental right and a cornerstone of our 
democracy. We should strive to make our democracy a beacon to 
the world. To do so, we must eliminate practices that 
discourage voter participation and leave the effect--and have 
the effect of limiting registration rates for communities of 
color, low-income Arizonans, and other community.
    Thank you.
    [The statement of Mr. Hill follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairwoman Fudge. Thank you very much.
    Senator, you are recognized for five minutes.

             STATEMENT OF HON. MICHELLE UGENTI-RITA

    Ms. Ugenti-Rita. Wonderful. Thank you.
    Good morning, Chairwoman Fudge and Subcommittee on 
Elections Members. Thank you for the invitation to address you 
this morning.
    During my nine years as a State legislator, I have been 
actively engaged in improving Arizona election laws. I evaluate 
bills based on four criteria: First, does it enhance and 
protect the integrity of elections? Second, does it empower 
voters? Third, does it enable voter participation? And, 
finally, does it improve the maintenance and consistency of the 
administration of elections?
    To be clear, I do not believe election policy should be a 
partisan issue; and I have a strong history of fighting for 
these principles that often cut across partisan lines. For 
example, in 2012, I championed legislation that required all 
candidates to run in the fall of the even year when turnout is 
strong, an obvious win-win for everyone.
    After the Presidential Preference Election debacle in 2016, 
brought up several times this morning, when there was mass 
voter confusion and unacceptable wait times to vote, I convened 
a special meeting of my Elections Committee to question then-
Secretary of State and the then Maricopa County Recorder, both 
fellow Republicans, to understand what happened and who was 
responsible. And in 2017, I held the Republican-controlled 
Maricopa County Board of Supervisors accountable after learning 
they were operating under an outdated intergovernmental 
agreement from 1955, allowing the Board to abdicate many of 
their important statutory obligations regarding the 
administration of elections.
    These are just some of the many examples that demonstrate I 
am a strong and unwavering nonpartisan advocate of fair and 
impartial electoral process.
    Arizona is, and has been, on the forefront of efforts to 
increase voter turnout and participation, all the while 
protecting the process from fraud. Sadly, as the saying goes, 
no good deed goes unpunished, resulting in some of those 
efforts to increase voter participation, specifically the 
enactment of mail-in voting, to be abused by ballot harvesting.
    My bill successfully banning the practice of ballot 
harvesting which allows third parties to collect or harvest 
mail-in ballots of individual voters is a major step forward in 
maintaining the ability of Arizonans to participate in the 
electoral process via the mail without fear of it being 
manipulated.
    Many political operatives and activists criticize this 
commonsense prohibition, claiming it unduly burdens voters by 
making it more difficult to return their mail-in ballot. This 
claim is simply not supported by the facts. Arizona's mail-in 
system is a voluntary one, whereby voters voluntarily elect to 
receive their ballot via mail, fill it out, and return it 
within the generous 27-day early voting period. And it is 
counterintuitive to think that a voter would sign up to 
participate in a process, presumably for its benefits, and in 
this case for the convenience of having their ballot mailed to 
them, then criticize that very process as burdensome when 
mailing it back in the prepaid envelope that accompanied their 
ballot.
    Again, it is difficult to believe someone who using the 
mail to pay bills and send and receive other correspondences 
would only struggle when it came to mailing back their ballot 
and not struggle with their other mail.
    Mailing a ballot back is not the only option available in 
Arizona. Arizona allows for many other methods to return a 
mail-in ballot. However, opponents of my anti-ballot harvesting 
bill continue to argue that the bill burdens voters despite the 
fact that the Ninth Circuit Court of Appeals decision upholding 
the law, they note, and this is important, they note that not a 
single voter testified at trial that H.B. 2023 made it 
significantly more difficult to vote. In fact, the bill was in 
place for the 2016 elections when voter turnout was a roaring 
74 percent.
    Voting by mail is only one of the many options available in 
Arizona. It is easy and convenient to vote in the State of 
Arizona. If you are not voting, it is because you have chose 
not to.
    Arizona should be commended for adhering to its 
constitutional responsibility of enacting laws to secure the 
purity of elections and guard against abuses that is in our 
Constitution, often in the face of unsubstantiated and, 
frankly, offensive claims of voter suppression and racial 
motivations.
    The proponents of ballot harvesting have failed. They have 
failed to provide any meaningful evidence, statistical data, or 
direct testimony, during the legislative process, as well as 
the bench trial, that breaking the chain of command and 
entrusting a third party to collect a voter's mail-in ballot is 
in the public's best interest.
    We are, unfortunately, forced to conclude that only outside 
forces and special interest groups have a vested interest in 
protecting the practice known as ballot harvesting. We as 
legislators cannot allow for the potential of lost ballots, 
undue influence, and fraud to taint our electoral system. 
Voting is the most direct method to impact Government, and the 
process should be protected to ensure voters have confidence in 
the system and its outcomes. And I ask you: What is the outcome 
of an election worth if nobody believes in it? The risks are 
high, and our democracy is only as strong as our fair and open 
elections. The solution, painfully simple: Secure our 
elections, protect the process from cheating, and enforce our 
current laws. My bill banning the practice of ballot harvesting 
gets us one step closer to that ultimate goal.
    Thank you, Subcommittee Members.
    [The statement of Ms. Ugenti-Rita follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    Chairwoman Fudge. Thank you.
    Mr. Butterfield, you are recognized for five minutes.
    Mr. Butterfield. Thank you very much, Madam Chairwoman.
    Thank you to the six witnesses for your testimony today. It 
is very valuable.
    Let me address my questions to the gentlelady from the 
Sandra Day O'Connor College of Law, Bohnee.
    How do you pronounce your last name?
    Ms. Ferguson-Bohnee. Bohnee.
    Mr. Butterfield. Bohnee. Bohnee. I got it. Like Bonnie 
Watson Coleman, one of our colleagues.
    We have talked extensively about the absence of Section 5 
and what impact it is having on the right to vote. Let me focus 
my remarks and my questions on Section 2.
    Before I went to Congress, I was a judge in my State for 15 
years. But before that, I was a voting rights attorney back in 
the 1980s. So, I know the subject matter quite well. I am not a 
legal scholar on it, but I know it quite well. Section 2 is a 
very powerful instrument. It is a very expensive instrument, 
but it is very powerful.
    Have there been any Section 2 cases filed in Arizona in 
recent memory?
    Ms. Ferguson-Bohnee. Yes. Thank you for the question.
    I have actually been involved in several Section 2 cases in 
the State of Arizona, one after the 2000 redistricting on 
behalf of the Navajo Nation. Also, the voter ID litigation that 
was brought on behalf of the Navajo Nation and other Native 
Americans citizens in the State of Arizona. Currently, we have 
litigation ongoing in Federal District Court, dealing with the 
lack of access to early voting, voter registration, and 
noncompliance with Section 203 of the Voting Rights Act.
    So, there is litigation, but Section 2 isn't a viable 
replacement to Section 5. It is very expensive and time 
consuming.
    Mr. Butterfield. Section 5, the burden of proof is on the 
jurisdiction----
    Ms. Ferguson-Bohnee. Right.
    Mr. Butterfield [continuing]. To prove absence of 
discriminatory impact?
    Ms. Ferguson-Bohnee. Right.
    Mr. Butterfield. And in Section 2, the burden is on the 
plaintiff.
    Ms. Ferguson-Bohnee. That is right. As you have heard, as 
you probably know, Tribes have limited resources; and they 
shouldn't be shouldered with the burden to bring cases to 
ensure that the right to vote is protected.
    I just want to give you an example with regards to the last 
round of redistricting in the State of Arizona. We have an 
Arizona Independent Redistricting Commission. It was the first 
time that the commission consulted an expert to determine 
whether or not the maps retrogressed, and it was the first time 
that the State of Arizona received preclearance on the first 
try.
    And for Tribes in the State of Arizona, we have one 
majority-minority district; and there is a concern that without 
Section 5, that the impact of redistricting on Native Americans 
voters will not be considered and potentially lose that 
majority-minority Native Americans district.
    Mr. Butterfield. Can you give me a ballpark figure about 
how much the average Section 2 case, fully litigated, would 
cost in the State of Arizona?
    Ms. Ferguson-Bohnee. Fully litigated.
    Mr. Butterfield. Just on the average. I know there are 
extremes, but on average.
    Ms. Ferguson-Bohnee. I mean, I think without revealing any 
confidences or anything like that----
    Mr. Butterfield. Well over $100,000, much more?
    Ms. Ferguson-Bohnee. Up to $1 million, because you have to 
have experts who testify on your behalf and have, you know, 
many resources for these cases.
    Mr. Butterfield. Has the Department of Justice initiated 
any Section 2 cases in Arizona?
    Ms. Ferguson-Bohnee. The Department of Justice for the two 
decades I have been working in voting litigation in the State 
of Arizona has not initiated any cases on behalf of Tribes.
    Mr. Butterfield. Let me use my last minute and a half with 
you, Mr. Hill. Thank you. Thank you for your testimony today. I 
want to talk about restoration of voting rights. Are there any 
Arizonans who are convicted felons who have completed their 
sentences, completed their obligations to the court, who have 
not been allowed to register to vote?
    Mr. Hill. Absolutely, Representative Butterfield.
    Mr. Butterfield. These are American citizens, living in 
Arizona, who have completed their obligation to the court 
system, who are not allowed to vote.
    Mr. Hill. Absolutely. A couple of years ago, the ACLU did a 
records request to the Maricopa County Superior Court, seeking 
information about people who had restored--attempted to restore 
their right to vote. What we found was that, I believe, 25 
percent of those persons had been denied their restoration due 
to owing fines, fees, or some other financial obligation. Of 
the people, of those people who were denied the right to vote, 
another 25 percent owed no financial obligations.
    So, they had fully completed their sentence. They had paid 
all their financial obligations. But the court had still denied 
their right to vote, and at the time, there was no explanation 
for why.
    Mr. Butterfield. They are over 18 years of age. They are 
American citizens?
    Ms. Arredondo. Yes.
    Mr. Butterfield. And not allowed to vote?
    Ms. Arredondo. Yes.
    Mr. Butterfield. In both State and Federal elections, or 
just State elections?
    Ms. Arredondo. Both State and Federal elections.
    Mr. Butterfield. Is there any ongoing litigation currently 
to address that?
    Ms. Arredondo. Not in Arizona, not that I am aware of.
    Mr. Butterfield. Anyone aware of any litigation presently 
to address the issue of restoration of voting rights?
    Well, thank you so very much for your testimony.
    Madam Chairwoman, I will yield back.
    Mr. Aguilar. I will recognize myself, Mr. Butterfield.
    Mr. Butterfield. May I seek a point of personal privilege, 
Madam Chairwoman?
    Chairwoman Fudge. Yes.
    Mr. Butterfield. I am trying to inquire about the ladies in 
the audience wearing red. Is there any significance about that 
with your sorority?
    Chairwoman Fudge. My sorority sisters, Delta Sigma Theta, 
are in the audience.
    Mr. Butterfield. Thank you. I yield back.
    Mr. Aguilar. You can always count on the Chair to bring 
some friends.
    Thank you, Madam Chairwoman.
    I am going to ask two questions and if our panelists--
because of the limited time, I do apologize, but if you could 
give me a yes-or-no answer. This is based on the prior panel 
and also on the testimony that you gave us today.
    My first question, Ms. Bohnee, I am going to put you on the 
spot first, and we will try this. We will see how this goes. 
Does the closure of polling locations have a disparate impact 
on minority populations in Arizona?
    Ms. Ferguson-Bohnee. Yes.
    Mr. Aguilar. Ms. Van Assche?
    Ms. Van Assche. My testimony is relying on findings in our 
advisory memorandum, and we didn't reach a yes-or-no answer on 
that. Based on that, I will abstain from answering.
    Mr. Aguilar. I appreciate it. Ms. Arredondo?
    Ms. Arredondo. I would say yes.
    Mr. Aguilar. Mr. Gulotta?
    Mr. Gulotta. I would say yes.
    Mr. Aguilar. Mr. Hill?
    Mr. Hill. I would say yes.
    Mr. Aguilar. Senator?
    Ms. Ugenti-Rita. I think it is important to note that those 
who choose the polling locations are the County Board of 
Supervisors. So, it is the most relevant question for them. So, 
what they choose as polling locations is based on their 
information and their due diligence.
    Mr. Aguilar. You don't have any opinion on whether that 
disproportionately affects minority populations?
    Ms. Ugenti-Rita. I think the polling locations suffice; but 
if more polling locations are needed, then you need to go to 
the more appropriate governmental jurisdiction, which is the 
county board of supervisors and the Maricopa County Recorder. 
Both of those entities are in charge with choosing polling 
locations and vote centers.
    Mr. Aguilar. Understood.
    Ms. Bohnee, do residency challenges and lack of language 
assistance have a negative impact on Native Americans 
participating in State and local and Federal elections?
    Ms. Ferguson-Bohnee. Yes. May I add something to that?
    Mr. Aguilar. Yes.
    Ms. Ferguson-Bohnee. So in the State of Arizona--I think 
Governor Lewis and President Nez said this, but I just want to 
reiterate that Native Americans, most Native Americans, do not 
receive mail at their homes, that, in addition to not having 
access to transportation or receiving mail at their homes, that 
the roads are in poor condition primarily in Indian Country. So 
without that access, it becomes a challenge to participate in 
any vote by mail.
    And I also want to note that in the State of Arizona and 
different counties, that people have been defaulted to the 
PEVL, so the Permanent Early Voting List. So, if they did not 
choose that, sometimes they were defaulted by the county and 
they cannot be expected to participate in early voting and then 
go to the polls and have to complete a provisional ballot, and 
that is contrary to Arizona law, but that is the realities on 
the ground.
    Mr. Aguilar. I appreciate it.
    Ms. Van Assche, I will ask it again. Do residency 
challenges and lack of language assistance have a negative 
impact on Native Americans participating in State, local, and 
Federal elections?
    Ms. Van Assche. Yes.
    Mr. Aguilar. Ms. Arredondo?
    Ms. Arredondo. I would say yes, and I just want to bring 
back testimony from President Nez that only one in 10 Native 
Tribe members own a vehicle, and there is no public 
transportation on Native--on the Navajo reservation, along with 
some folks having to travel anywhere from 60 to 90 miles to get 
to their polling location. So, I just want to bring that back. 
That is a far way to go to vote on Election Day.
    Mr. Aguilar. Thank you.
    Mr. Gulotta?
    Mr. Gulotta. I would say yes also, just because there are 
many, many people who actually need the ballot translated to be 
able to access our franchise. My Lyft driver this morning, her 
mother, she was telling me this story about how her mother had 
to have her ballot translated to be able to vote. That is what 
allows people to access the franchise; and without those kinds 
of protections, you know, we really can't have our Native 
American community members participating the way we want them 
to.
    Mr. Aguilar. Thank you.
    Mr. Hill?
    Mr. Hill. I would say yes. When you look at the combination 
of poverty in many of the Native American communities, lack of 
Internet access to access online voting, online registration 
opportunities, coupled with the lack of transportation and 
language access issues, it presents a real barrier for Native 
American communities to vote in Arizona.
    Mr. Aguilar. Senator?
    Ms. Ugenti-Rita. Thank you, sir. No.
    Mr. Aguilar. Thank you.
    I will do this to Mr. Gulotta and Ms. Van Assche based on 
your research, as well as the groups that you represent. Some 
people are going to say that the polling closures are a 
reaction to declining in-person voting. Why would that be right 
or wrong?
    Mr. Gulotta. It may, in fact, be true. The problem is, 
since preclearance, we no longer study the impact of closing 
polling locations. And so, we don't know who gets harmed. We do 
know from Judge Thomas' dissent in the DNC v. Reagan case, we 
do know it significantly statistically increases the use of 
out-of-precinct ballots, which means people's voting rights are 
denied. Because people are confused, they go to the wrong 
place, they are given a ballot that then doesn't get counted, 
and that is really a travesty, and we have got to figure out a 
way to correct that problem.
    So, maybe it is more education. Maybe it is more outreach. 
But maybe it is more polling places, and without preclearance, 
we don't really know because we don't study these things 
anymore.
    Mr. Aguilar. Thank you.
    Ms. Van Assche, quickly.
    Ms. Van Assche. And I missed that question, if you can 
repeat it.
    Mr. Aguilar. Some people are going to say that the polling 
closures are a reaction to declining in-person voting. Based on 
your research, would that be right or wrong?
    Ms. Van Assche. I think the testimony that we got from, at 
least, Maricopa County election officials, was that the reason 
for the reduction was the decrease in demand and the increase 
in early-voting preference, but that was one side of the issue. 
I don't think we received testimony on the other side. So, I 
don't know that that is--again, it is an elected official. 
Though their testimony is valuable, perhaps it is one-sided; 
and I don't think that the testimony really supported that 
beyond that person's testimony.
    Mr. Aguilar. The answer could be we need more data.
    Thank you so much.
    Thanks, Madam Chairwoman.
    Chairwoman Fudge. Thank you.
    Ms. Lesko, you are recognized for five minutes.
    Ms. Lesko. Thank you, Madam Chairwoman.
    And, Madam Chairwoman, I hope you will remind the audience 
not to boo or heckle any witnesses.
    Thank you.
    Chairwoman Fudge. This is an official Congressional 
hearing. We would ask that you would be respectful of all of 
our witnesses.
    Thank you.
    Ms. Lesko. Thank you.
    Again, thank you, all of the witnesses for coming here 
today; and I especially enjoyed the first panel because I need 
to hear firsthand the unique problems that our Native American 
members have.
    I think most--what I have heard so far is that we need more 
polling locations. We can't use a Tribal ID number online. I 
don't know if that is still the case. That was in 2018, 
correct? Okay. We need to train poll workers better. It 
basically brought up about disabled folks and other folks and 
that somehow we are automatically putting people on the PEVL 
list, the county recorder.
    So, I just want to say, most of these problems seem to be, 
should be solved at the State or county level, and they should 
be, and that is why I encourage everyone to reach out to their 
county and State election officials.
    And the long lines in 2016 were brought up many times, and 
as many of you know, but maybe not my colleagues from out of 
the State, that was the voters spoke up loud and clear, and 
they ousted that election director and installed a new one.
    And on the Federal issue of more post offices, that was 
brought up, too, on Native lands. That is a Federal issue, and 
that I would like to work on.
    I do have questions for Senator Ugenti-Rita. You had 
brought up about your bill, H.B. 2023, which bans ballot 
harvesting. Why do you think that was necessitated?
    Ms. Ugenti-Rita. Yes, thank you for the question.
    While election issues generally and ballot integrity and 
specifically have been my primary focus as a legislator, and I 
take very seriously the responsibility to ensure the electoral 
process has integrity. Voters trust it and want to participate 
in it. Therefore, when I heard from constituents about the 
issue, I started to do my own due diligence on it and quickly 
realized something had to be done.
    Frankly, I believe ballot harvesting flies in the face of 
fair and impartial elections, and as the Chair of House 
Elections Committee at the time; I decided to do something 
about it and introduced my bill to ban the practice.
    Ms. Lesko. And thank you, Senator Ugenti-Rita.
    Do you think this would benefit, the same bill would 
benefit other States? Because there was a concern that was 
noted in some media reports in California. There is a belief 
that about seven Republican seats were flipped because of 
ballot harvesting.
    Ms. Ugenti-Rita. Yes. Thank you. And let's not forget North 
Carolina.
    But, absolutely, every State that cares about their 
elections should follow Arizona's lead.
    Ms. Lesko. And thank you.
    And I do want to bring up kind of a--maybe I got it wrong, 
but most of the President and the Governor of the Indian 
Nations said that most of their members like to vote in person, 
and that is part of tradition and that type of thing. So, I do 
think we need to look at more polling locations in the Indian 
Nation or Native American Nation. Then that wouldn't be 
affected by your ballot harvesting bill, because that just 
deals with early voters, correct?
    Ms. Ugenti-Rita. Correct. My ballot harvesting bill ban 
only deals with voting early by mail. So, it only deals with 
those ballots that are sent to a voter in the mail. So, if you 
chose to vote early, in person, or chose to vote in person day 
of, you would not be affected by the ballot harvesting ban.
    Ms. Lesko. And thank you.
    And there seemed to be some question about what family 
members could carry a ballot. And so, I have the bill in front 
of me and it says a family member means a person who is related 
to the voter by blood, marriage, adoption, or legal 
guardianship. So, some of the examples given that like your 
grandmother couldn't take it or your uncle, is that inaccurate?
    Ms. Ugenti-Rita. Yes. And also in the litigation, the 
plaintiffs did not challenge the definitions of those 
exceptions. So, that would lead me to the assumption that they 
didn't find those exceptions to be problematic.
    Ms. Lesko. Thank you.
    And since this law has been in effect for two years--two 
cycles, election cycles now, has there been any complaints 
filed that you know of?
    Ms. Ugenti-Rita. Excellent. Not only has there not been a 
complaint that I am aware of, I am not even aware of others 
receiving complaints in the community and, of course, the 
district court judge noted that no complaint was made at trial. 
No one testified that they were precluded from voting because 
of the ban.
    Ms. Lesko. Thank you.
    Chairwoman Fudge. Thank you.
    Mr. Gallego, you are recognized for five minutes.
    Mr. Gallego. Thank you.
    It is good to see you here, Representative. Senator, is it 
now?
    Ms. Ugenti-Rita. Yes. Senator.
    Mr. Gallego. All right. I have known you for a long time, 
worked with you for a long time. I know you are very passionate 
about these issues. What bills are you thinking about 
introducing next year when it comes to voting issues, voting 
ballots, ballot harvesting, or permanent early voter lists?
    Ms. Ugenti-Rita. Thank you for the question. It is good to 
see you. I have known you for a long time now.
    I am looking at taking on the topic of the voting manual to 
make sure that that goes through a proper vetting process. That 
does come with the enforcement of law, so we do need to make 
sure that what is included in that manual are things that the 
county and other local officials can follow.
    Mr. Gallego. Limited time. What about, did you--are you 
going to introduce the bill that makes the permanent early 
voter list not permanent, like you did last time?
    Ms. Ugenti-Rita. Well, in the--it is called permanent early 
voting list, so by definition, it is supposed to be only 
permanent if you vote early. But if you want me to introduce 
it, I totally will.
    Mr. Gallego. So you did introduce--so just to clarify for 
the panel and everyone here, last year, you introduced a bill 
that said that if you did not vote in how many past elections, 
you are going to get picked off the permanent early voting 
list. Is that correct?
    Ms. Ugenti-Rita. Yes.
    Mr. Gallego. Okay. What were the other restrictions that 
came along with that legislation?
    Ms. Ugenti-Rita. I don't recall. Is there one that you want 
to bring up, and I will answer it?
    Mr. Gallego. I believe there was something about that they 
would be restricted to also not be allowed to drop off their 
ballot.
    Ms. Ugenti-Rita. Oh, okay. Yeah. That is a different bill. 
I thought you were talking about the first one. Yes.
    Mr. Gallego. Can you describe that bill where you are not 
going to be allowed to drop off your ballot at the ballot--at 
the polling place?
    Ms. Ugenti-Rita. Yeah, absolutely. I am happy to. So a part 
of what--some of the problems Arizona has been experiencing is 
very long timeframes to get election results. Timeliness is 
important. It is an important part of the electoral process. 
And so we need to make sure that the results of elections are 
indeed timely. What happens--what happens--what happens is----
    Mr. Gallego. So couldn't you actually just--couldn't you 
actually subsidize the county----
    Ms. Ugenti-Rita. What happens--what happens is----
    Mr. Gallego [continuing]. So they could just count ballots 
sooner instead of trying to restrict people turning in ballots?
    Ms. Ugenti-Rita. Sir, do you want to listen to the answer?
    Mr. Gallego. Yes.
    Ms. Ugenti-Rita. I will give it to you.
    Mr. Gallego. Good.
    Ms. Ugenti-Rita. Okay. So what happens is because a lot of 
these ballots are dropped off day of, and statutorily, you are 
not allowed to verify the signature or open them until after 7 
p.m. On election day, they contribute to the delay in the 
results. If you were to mail back your ballot, which I think is 
what the system is designed to do, it does come with a 
prestamped envelope. That would go a long way in reducing----
    Mr. Gallego. Great. I am going to reserve my time back.
    Mr. Gulotta, is there a better solution than trying to 
disfranchise thousands of Americans--Arizonans than this?
    Mr. Gulotta. Yes. I mean, we already have a process for 
removing people from the voting rolls under the--under the----
    Mr. Gallego. Well, let's just get to like the actual 
dropping off of ballots. Is there a better process in doing 
this than stopping people from dropping off ballots?
    Mr. Gulotta. Yeah. We can just start counting them sooner. 
We have the right to start counting them sooner. We just 
preclude people from counting them sooner.
    Mr. Gallego. Yielding back my time.
    Representative--Representative, back to your bill on ballot 
collection. Did you have Tribal consultation while you were 
creating that law?
    Ms. Ugenti-Rita. Yes. Excellent question. The bill was the 
result of a legislative stakeholder process, which means that 
it was assigned and heard in the appropriate committee and 
passed out. It was then debated in committee of the whole, the 
entire chamber, and then received the majority of votes needed 
to pass out of each chamber and then signed by the Governor 
into law.
    Mr. Gallego. Okay. And I understand that. I was a State 
representative with you. But did you speak to any Tribal 
nations, organizations before you passed that law to try to get 
their input while you were crafting that legislation?
    Ms. Ugenti-Rita. Right. Well, in committee, it is open to 
the public and any other vested stakeholder who wants to come 
in and register their either opposition or support of the bill.
    Mr. Gallego. Okay. So you understand--why some of us are 
concerned that there wasn't Tribal consultation. Will you have 
Tribal consultation going forward? Will you actively work with 
Tribal organizations before you create these types of 
legislation in the future?
    Ms. Ugenti-Rita. I did by introducing the law and having it 
go through the appropriate process.
    Mr. Gallego. But you did not do a reach out, a reach-out 
program to them or anything?
    Ms. Ugenti-Rita. Yes. I had--I had the bill in committee.
    Mr. Gallego. Okay. Representative Ugenti--sorry. Senator 
Ugenti, how many Tribes are there--how many federally 
recognized Tribes are there in Arizona?
    Ms. Ugenti-Rita. I don't know that number, sir.
    Mr. Gallego. There are 21. You have been a State 
representative and a State senator elected I think since 2010, 
and you are crafting legislation that affects Native Americans, 
but you don't know how many federally recognized Tribes are in 
Arizona. This is why you should probably----
    Ms. Ugenti-Rita. I will answer that.
    Mrs. Lesko. Madam Chairwoman, can you tell the audience not 
to interrupt, please?
    Mr. Gallego. Please audience, no participation.
    So this is why I suggest, if you are going to write up more 
legislation, you should probably have active participation and 
actually invite Tribes since you yourself do not even know how 
many Tribes are in Arizona.
    Thank you. I yield back my time.
    Chairwoman Fudge. Thank you.
    Mr. Stanton, you are recognized for five minutes.
    Mr. Stanton. Thank you very much. Thank you very much, 
Madam Chairwoman. I also have a few questions for the Senator.
    Thank you for coming earlier here today, and you did have 
the opportunity to hear our two outstanding Tribal leaders 
testify on their concerns about the impact on Tribal voting 
participation as a result of H.B. 2023, the ballot collection 
bill.
    In your testimony, both written and verbal here today, you 
said that you are ``forced to conclude that only outside forces 
and special interest groups could oppose H.B. 2023.'' Do you 
consider Arizona's Tribal communities ``outside forces'' or, 
``special interest groups?''
    Ms. Ugenti-Rita. No.
    Mr. Stanton. Were you aware of Tribal opposition to your 
bill before today?
    Ms. Ugenti-Rita. Yes, sir.
    Mr. Stanton. Then why would you characterize Tribal 
communities as ``special interest groups'' or, ``outside 
forces'' in your testimony?
    Ms. Ugenti-Rita. Look, I am going to quote what the Ninth 
Circuit District Court of Appeals said when they evaluated this 
bill in their decision. The panel held that the district court 
did not err in holding that H.B. 2023 violated the First and 
14th Amendments because provisions imposed only a minimal 
burden on voters and were adequately designed to serve 
Arizona's important regulatory interests. The court defined--in 
their opinion, referred to those burdens as de minimis, meaning 
too trivial or minor to even merit consideration. I support the 
bill because there is not enough evidence to suggest that 
banning this practice hurts anyone.
    Mr. Stanton. After hearing the testimony today of the 
Tribal leadership and the impact on their members as a result 
of the bill you championed in the legislature, do you consider 
that to be, quote, de minimis on--the impact on their Tribal 
members?
    Ms. Ugenti-Rita. Yes. I agree with the Ninth Circuit Court 
of Appeal's decision upholding the District Court. I also 
remember hearing, and the prior panelists tell me, that many of 
the Native American communities prefer to vote in person. And I 
think it was brought up earlier by Congresswoman Debbie Lesko, 
and I will reiterate that my bill only deals with mail-in 
voters.
    Mr. Stanton. Did you or any members of your staff invite 
Tribal participation at the hearing before the Elections 
Committee that you chaired on H.B. 2023? That is a yes or no 
question.
    Ms. Ugenti-Rita. It is open to the public.
    Mr. Stanton. Senator, your written testimony states that 
``it is difficult to believe that someone who uses the mail to 
pay their bills and send or receive other correspondence would 
only struggle when it came to mailing back their ballot and not 
struggle with other mail.''
    Before today, were you aware of the unique issues members 
of our rural Tribal communities face when it comes to mail?
    Ms. Ugenti-Rita. Yes. Thank you for the question. And I 
think I brought this point up earlier in my statement. Why 
would you elect to receive something by mail that then became a 
problem for you? So if you are going to sign up for something 
that presumably is going to offer you a convenience, then it 
would make sense that that convenience would last longer than 
just receiving the ballot, but it would also be there for you 
to return it. Again, this is an elective system in Arizona. 
Other States are different, but in Arizona, if you want to 
participate in mail-in voting, you have to make the effort to 
sign up for it. Nobody forces you.
    Mr. Stanton. After hearing--thank you. After hearing from 
Governor Lewis and President Nez, do you agree that perhaps 
H.B. 2023 is having a uniquely negative impact on our Tribal 
communities and that it would be worth revisiting these issues 
in the next Arizona legislative session?
    Ms. Ugenti-Rita. Sir, no, I don't. And I would also like to 
note that there are very reasonable exceptions in the law. So 
it is a very small amount of people that we are talking about 
that perhaps would be affected. Remember, these exceptions are 
caregiver, household member, and family member. That, coupled 
with the fact that I heard that most individuals in the Tribal 
community prefer to vote in person or at least perhaps in 
person early, I don't think this will have a large effect.
    Mr. Stanton. Thank you so much.
    Ms. Ugenti-Rita. And again, the courts described it as de 
minimis.
    Mr. Stanton. I think it is unfortunate and sad that our 
Tribal leadership was not reached out to before this bill was 
passed in our State legislature. When I think of the last few 
minutes, they demonstrate that when important decisions are 
made at the State capital that have a direct impact on our 
Native American population, too often these citizens are 
forgotten. They aren't at the table. And when they voice their 
concerns, they are dismissed as, quote, ``outside forces or, 
special interest groups.''
    It is puzzling and frustrating to me that at a hearing on 
an important voting rights issue that could go on for more than 
2 hours as the hearing in Arizona legislature did, nobody 
thought to ask for the opinions of our Tribal leaders. Nobody 
who wanted to push this bill seemed to care. And, my friends, 
that is exactly why the Voting Rights Act was so important and 
why the Supreme Court's decision was so harmful to so many 
Americans, because the rights of our minority are too often 
shut out by the interests of the majority.
    I am proud to be a co-sponsor of the Native American Voting 
Rights Act, and this hearing has shown today why we need it and 
has strengthened my resolve to fight for it.
    Thank you, Madam Chairwoman. I yield back.
    Chairwoman Fudge. Thank you.
    Mr. Grijalva, you are recognized for five minutes.
    Mr. Grijalva. Thank you, Madam Chairwoman.
    Director Bohnee, I am trying to put a nexus, a Federal 
nexus, an important role for Congress, the Voting Rights Act, 
obviously, but the trust responsibility that is inherent in the 
Constitution with native nations and indigenous people in 
general. The relationship for the discussion we are having here 
today and that trust responsibility, as you see it.
    Ms. Ferguson-Bohnee. Yes. Well, I mean, obviously there 
have been issues with Tribes in voting, and the U.S. has a 
trust responsibility. And I think as Mr. Butterfield asked, 
have there been Section 2 enforcement actions taken on behalf 
of Tribes in the State of Arizona? No, there haven't. Have 
counties failed to comply with Section 203? No, they haven't. 
But have there been enforcement actions taken on behalf of 
native peoples? No, there haven't.
    In Arizona, 5 percent of the population is Native 
Americans. They comprise over 27 percent of the land base. Only 
18 percent of the land in the State of Arizona is privately 
held. So there is going to be a disproportionate impact when 
people who live in cities and urban areas are making decisions 
and not considering the impacts on our rural communities, who 
often don't have access to mail. But also, we have communities 
who don't have access to utilities or even running water. And 
those are the realities on the reservation.
    And so the Federal Government should step in, ensure that 
Native Americans have polling locations and access to early 
voting and voter registration.
    Mr. Grijalva. If nothing else, under the mandate of the 
trust responsibility.
    Ms. Ferguson-Bohnee. Yes.
    Mr. Grijalva. Okay. Thank you.
    Mr. Gulotta, did I get it right?
    Mr. Gulotta. Yes, sir.
    Mr. Grijalva. We have heard a lot today about the purity, 
to some extent, the integrity of the voting process. You know, 
the administration, this administration tried, on the same 
issue of voting and integrity had, I think, Chris Kobach or 
somebody run a committee for a while that went nowhere, and 
then quietly, and thank God, it disappeared into the night. But 
the point I am making is that there is a national strategy on 
the issue of suppression, whether you want to hear it or not, 
and that it targets poor people, people of color, and in the 
instance that we are discussing here today, indigenous people 
and Tribal lands.
    I want to ask you about that, that national, and then we 
are talking here in Arizona, where it seems to be that the 
underlying agenda in that targeting is keep the power in 
certain hands and keep the political policies in a certain 
direction. And so let's talk about strategy, not necessarily 
the legal one, but the political ramifications of not enforcing 
and doing the right thing with the Voting Rights Act in terms 
of extending protections of preclearance and trust 
responsibility that was added to the agenda. Sir?
    Mr. Gulotta. Thank you, Congressman. I think the real issue 
here is just the cumulative effect of all of these attacks on 
people's voting rights. H.B. 2023 attacks the right to do 
ballot collection. S.B. 1072--so we say, you know, you don't 
need mail. So then we look at S.B. 1072, but now you need an ID 
for early in-person voting. We make it harder to vote in person 
early because now we need an ID on top of our signature. We 
have made that harder.
    We have a bill that tries to criminalize voter registration 
that didn't pass the last session. We had a bill that didn't 
pass last session that was designed to prevent people from 
dropping their ballots off at the polling place. There was a 
bill that was going to purge people from our permanent early 
voting lists, and it goes on and on and on. And they are part 
of a concerted strategy to, in fact, disfranchise people from 
voting.
    And if you read the dissent in DNC v. Reagan I think you 
will get a good understanding of exactly what is happening and 
why and that it really is targeted at hurting people of color, 
and we should fight back against that. And the biggest weapon 
for people of color against this kind of voter suppression is 
preclearance, because preclearance shifts the burden of proof 
from the voter to the government. And if the government, 
whether it is the local--the Secretary of State or whether it 
is the local registrar, when they decide to take action, they 
have to prove that they are not hurting people. And that makes 
a huge, huge difference, and that is why we need to get back to 
preclearance.
    Mr. Grijalva. Madam Chairwoman, I yield back, and thank you 
again for conducting this hearing and having it here in 
Arizona.
    Chairwoman Fudge. Thank you so much.
    I want to thank you all, but I am going to ask you, so I 
will give you a minute to think about it. If there is one thing 
that you want us to do when we get back or one action you want 
us to take or one thing that you think that we should focus on 
from your testimony today, tell us what that one thing is. And 
I am going to give you a minute because I want to ask a couple 
of questions.
    First, let me just make a statement. I think that there is 
some confusion about what the Federal Government is responsible 
for as it relates to elections. Every person sitting up here is 
elected based upon what the Federal Government does, as is the 
President of the United States, as is the Senate of the United 
States as well.
    We have the responsibility to ensure election security and 
integrity in any election. We also, especially as you talk 
about now and you hear on the news all the time about 
interference from other nations, we have those responsibilities 
for cybersecurity, for integrity, and for security. As well, 
the Federal Government has to ensure that protected classes are 
not treated unfairly, and that is why you have heard questions 
about how it affects the poor, how it affects people of color, 
et cetera. So we do have an overall responsibility for 
elections. So don't think it is solely a State issue. It is 
not. So I just want to make that clear as we go forward so that 
the audience is not confused about our responsibility.
    Secondly, and I think, to the Senator, I understand clearly 
what you have been saying to me. I am just curious how many 
people came to you about the harvesting that it was so 
important an issue that you needed to take it to make a law?
    Ms. Ugenti-Rita. Yes. Thank you, ma'am. Generally speaking, 
probably maybe a dozen.
    Chairwoman Fudge. And what is the size of the State of 
Arizona?
    Ms. Ugenti-Rita. It is--the population?
    Chairwoman Fudge. Yes.
    Ms. Ugenti-Rita. 6.5 million, but there is no correlation 
between the two, if that is what you are trying to----
    Chairwoman Fudge. Well, no. That is your decision. My 
thinking is that if 12 people come, and you are going to make a 
law that affects six-and-a-half million people, I think that 
that is a problem, but that is just--I am not asking to debate 
it. That is my opinion.
    The other thing that I really do want to address, and I am 
truly not trying to pick on you, but you just have said some 
things that concern me. Let me just say to you that mailing a 
bill is not a right. Voting is. You cannot compare those two 
things, because voting is a right given to us by the 
Constitution--I am not asking you a question--by the 
Constitution of the United States. And I can promise you that 
if my neighbor wanted me to mail their bill, I could, but I 
can't take their ballot. You cannot compare those two things.
    Because what I know is there was a time in this Nation 
where being a good neighbor meant something. We helped elderly 
people. We helped sick people. We helped the people who were 
disabled. We helped people. Now what we have done is say, I 
can't help you if you have a problem. That is--and I don't see 
that harvesting has been a major problem anywhere other than in 
North Carolina. It is the only place that I am aware of that it 
ever has been a problem. So we continue to find solutions for 
problems that don't exist.
    So with that, I am going to ask my questions and then 
close. The question I asked, if you remember, what is the one 
thing you would have us take away from this hearing or the one 
thing you would have us do when we get back? We will start with 
you, Ms. Bohnee.
    Ms. Ferguson-Bohnee. Thank you, Madam Chair. I believe that 
we need a framework in place to analyze voting laws as to 
whether or not they have a discriminatory impact on Native 
American communities. And if that is updating the preclearance 
formula, then that is what I think would benefit Indian Country 
in Arizona.
    Chairwoman Fudge. Thank you.
    We will just go right down the line.
    Ms. Van Assche. I think it has been very clear that our 
Native American community has suffered as a result of many of 
the challenges we have talked about, and so I would encourage 
the Subcommittee to continue dialogue to ensure that the Native 
American community has its unique issues addressed.
    Ms. Arredondo. I would encourage the Committee to continue 
to promote and push for the signature of--the thing that we 
have with us all the time, our signature, to be the number one 
way that we prove who we are when it comes to voting, not just 
for our Native American community, but also for our really 
young people who don't have a driver's license yet, have not 
gotten an ID, and we learned that just this last week with 
National Voter Registration Day.
    Mr. Gulotta. I would add along the same vein that I think 
that what we have been talking about today doesn't just impact 
our Native American partners and community members, but it 
impacts our African American community members and our Latino 
community members. And what we need, if anything else, is a 
coverage formula that still includes Arizona, because what you 
have heard today is that we have a serious problem here.
    Mr. Hill. There are over 6 million Americans who cannot 
vote today walking around our great Nation free, who have jobs, 
who are members of society, who cannot vote because of a felony 
conviction. We need to place greater pressure on States to 
reform their felon disenfranchisement laws and make it a point 
that every person who walks freely who is a citizen of this 
great country can vote in every election.
    Ms. Ugenti-Rita. Thank you. I hope the takeaway is that 
there is overwhelming support for the ban of this deceptive 
practice and to stop meddling in the State of Arizona and 
support our laws.
    Chairwoman Fudge. Which practice?
    Ms. Ugenti-Rita. The ban of prohibiting ballot harvesting. 
They overwhelmingly support that law.
    Chairwoman Fudge. Thank you.
    I thank you all so much for being here. I would just say 
that no law is perfect. We know it. We do that every day. Every 
Member up here knows that we pass laws. We make them better 
when we find out that there is something that needs to be 
changed. But I would just suggest that when we err, we should 
err on the side of the citizenry. We should err on the side of 
the Constitution, and ensure, as the Constitution says, that 
every single person in this country has the unabridged, 
unfettered right to vote.
    Is it difficult to do it the right way? Yes. But I think 
that in recent years, we have made it more difficult by making 
it more difficult on protected classes of people, the poor, 
people of color, I think--minorities. It has become very, very 
clear. But I appreciate the fact that all of you are working to 
try to make the system better. I just hope that we stop being 
so high and mighty that we realize that everybody is not like 
we are. Everyone does not have the same benefits we have had.
    Those who have been incarcerated, we don't take away their 
citizenship when we put them in prison, so we should treat them 
like citizens when they come out, and that means that they 
should have the right to vote like everyone else in this 
country.
    I thank you all very, very much. We will take your 
testimony and do the best we can to let our colleagues know 
what is happening in the State of Arizona.
    And with that, this hearing is adjourned. Oh. I can't do 
that.
    I want to thank the staff, both staffs, for the work that 
they have done. Thank you very much, staff.
    I want to thank the United States Capitol Police, who are 
here to protect us. We thank you all. The Members of the 
Committee, the Subcommittee on Elections, the Chairperson of 
the full committee, Zoe Lofgren in her absence, this college, 
Phoenix College, for hosting us, and everyone else who has had 
anything to do with the successful hearing today.
    Our staff from the House, from the Clerk's office who is 
transcribing all of this today, the people who are live-
streaming it, everyone, thank you all so much.
    Without objection, this hearing is adjourned.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
   
  
   
    
  
</pre></body></html>
